<html>
<title> - THE NATIONAL PARK SERVICE'S FUNDING NEEDS</title>
<body><pre>[Senate Hearing 109-84]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 109-84
 
               THE NATIONAL PARK SERVICE'S FUNDING NEEDS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   TO

REVIEW THE NATIONAL PARK SERVICE'S FUNDING NEEDS FOR ADMINISTRATION AND 
                 MANAGEMENT OF THE NATIONAL PARK SYSTEM

                               __________

                              MAY 10, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                 U.S. GOVERNMENT PRINTING OFFICE

22-740                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




















               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
               LAMAR ALEXANDER, Tennessee, Vice Chairman

GEORGE ALLEN, Virginia               DANIEL K. AKAKA, Hawaii
RICHARD M. BURR, North Carolina      RON WYDEN, Oregon
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
GORDON SMITH, Oregon                 JON S. CORZINE, New Jersey
                                     KEN SALAZAR, Colorado

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel























                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     2
Arnberger, Robert, on behalf of the Coalition of National Park 
  Services Retirees, Tucson, AZ..................................    29
Mainella, Fran P., Director, National Park Service; accompanied 
  by Steve Martin, Deputy Director, National Park Service, and 
  Bruce Sheaffer, Comptroller, National Park Service, Department 
  of the Interior................................................     4
Moore, Greg, Executive Director, Golden Gaste National Parks 
  Conservancy, San Francisco, CA.................................    20
Salazar, Hon. Ken, U.S. Senator from Colorado....................     4
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1
Werst, Lee, President, Association of National Park Rangers, 
  Orem, UT.......................................................    24

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    39

                              Appendix II

Additional material submitted for the record.....................    53





















                      THE NATIONAL PARK SERVICE'S 
                             FUNDING NEEDS

                              ----------                              


                         TUESDAY, MAY 10, 2005

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:38 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. We had a little confusion today in terms 
of--had a little cancellation in the meeting and then brought 
it back together. So in any event, we are here and I am sure 
some more of our folks will be here a little bit later.
    At any rate, good afternoon. I want to welcome Director 
Fran Mainella, from the National Park Service, and other 
witnesses to the subcommittee hearing today.
    Our purpose for this hearing is to receive testimony on the 
National Park Service funding needs for administration and 
management of the National Park System. And, of course, this is 
an appropriate time to talk about that in that the 
appropriations are being made now.
    This hearing came about at the request of several of my 
colleagues on the subcommittee who are not here yet. Despite 
budget hearings, members made it clear they would like to hear 
more about the National Park Service budget and have an 
opportunity to ask questions.
    During these fiscally restrictive times, many Federal 
budgets have been facing, of course, tough budgetary 
constraints. The National Park Service is no exception.
    A number of factors have added to the budgetary challenge, 
such as additional security requirements placed on the parks 
since 2001, keeping pace with the mandatory cost of living 
adjustments, backlogged maintenance projects, and increased 
utility costs. These and other demands, of course, have all 
taken a toll on the effectiveness of the budget and--and making 
it more difficult sometimes.
    The National Park Service consists of 388 units, with 
23,546 employees, with a budget of $2.6 billion in 2004. That 
equates to more funds per employee per acre and per visitor 
than any time in the history of the National Park Service.
    The National Park Service has requested a total 
discretionary budget authority of $2.249 billion for 2006, a 
small reduction from the other one, a net increase of $50 
million, however, compared to last year's appropriation.
    This includes $1.7 billion for operations. The 
administration has implemented an inventory and data system for 
the maintenance of the park infrastructure. The system allows 
managers to prioritize maintenance requirements and track 
progress toward addressing the maintenance backlog. They have 
also implemented organizational changes with a goal of 
improving efficiency, reducing overhead, lowering operating 
costs at the administrative level.
    We are here today to learn more about these changes and the 
potential savings and the potential needs in the future. Again, 
I would like to thank the witnesses for being here and look 
forward to your testimony. Welcome.
    Senator, do you have a statement?

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman. I am 
happy to be here to join you, and thank you for scheduling this 
hearing to review the funding needs for the National Park 
Service.
    An article in The New York Times stated, and I quote, 
``America's national parks expect record crowds this summer 
amid a widening debate over complaints that a lack of money is 
causing a growing and permanent deterioration of the parks.'' 
The article notes that although the administration proposed a 
2-percent cut in the Park Service's budget, administration 
officials stated that--and I quote, ``While efforts to limit 
the Federal deficit have limited spending and required some 
projects to be deferred, they contend that park services have 
not been shortchanged.''
    The article I quoted from was printed on May 1, 1988, just 
over 17 years ago. More than anything, it highlights the 
ongoing funding problem that the National Park Service and most 
other Federal land management agencies have been facing for 
several years now.
    This year the President is proposing to cut the National 
Park Service appropriation by about 2 percent, with most of the 
cut reflected in the proposal to zero out funding for the land 
and water conservation fund State grant program.
    The administration is continuing to propose modest 
increases in the primary operating account for the Park Service 
but even those increases will not keep up with inflation and 
other mandatory costs, such as annual cost of living 
adjustments and security needs.
    Mr. Chairman, I was pleased to join you in a letter this 
week to the Appropriations Committee seeking an increase of 
$100 million in the Park Service's operating account above the 
President's request.
    We are all aware of the difficulty in trying to overcome 
the deferred maintenance backlog. In addition, there are other 
unmet funding needs that, in my opinion, are even more 
critical, including resource protection, visitor interpretation 
and educational programs, and unfilled staff positions.
    As we said in our letter to the Appropriations Committee, 
the proposed budget leaves no room for new programmatic needs 
at any of the 388 units of the National Park System, nor is it 
likely to cover the entirety of the cost of living salary 
adjustments.
    As a result, this budget will not sufficiently meet the 
operating needs of the parks for the coming year. I hope that a 
hearing such as this will help to draw attention to some of the 
more pressing issues for the Park Service. This is an important 
first step for ensuring that in another 18 years, we are not 
discussing these same problems.
    I would like to quickly highlight a few additional concerns 
I have about the budget. Since September 2001, the Park Service 
has had heightened Homeland Security responsibilities. I am 
told that these additional security costs, which now total 
almost $40 million each year, are not reimbursed by the 
Department of Homeland Security and are having a significant 
impact on other Park Service funding needs.
    I am also concerned about the level of funding for park 
roads in the surface transportation authorization bill 
currently under consideration in the Senate. Both the House and 
Senate versions of that bill provide funding for park roads far 
below the amount proposed by the administration.
    Since the road money constitutes a significant portion of 
the proposed funding to address the maintenance backlog, more 
resources will be required to ensure that parks have the 
necessary infrastructure to meet the demands placed on them by 
visitors.
    And, Mr. Chairman, I have run through my statement here 
only to come to this point where I would want to extend my warm 
welcome and aloha----
    Ms. Mainella. Aloha.
    Senator Akaka [continuing]. To Fran Mainella, the director 
of the National Park Service, as well as to our other 
distinguished witnesses who will testify this afternoon.
    Fran, it is good to see you here again. And there are so 
many good memories that we started with when you first came on, 
and I cherish that. I look forward to continuing to work with 
you.
    Unfortunately, I have a scheduling conflict, Mr. Chairman, 
this afternoon and will not be able to stay for the full 
hearing. But I will submit my questions for the record.
    But, Fran, I want to wish you well.
    Ms. Mainella. Thank you, sir.
    Senator Akaka. You look so good.
    Ms. Mainella. Thank you. And you are such a supporter of 
parks. We really appreciate it.
    Senator Akaka. Yes. And thank you for what you have been 
doing. What I said, too, tells you that we have challenges 
ahead that we will have to deal with. And together we will do 
the best we can on this in helping the parks and the people of 
our country.
    Senator Thomas. Thank you, sir.
    I guess I do not know how to welcome you. We do not say 
aloha much in Wyoming.
    Ms. Mainella. Aloha.
    Senator Thomas. Howdy, maybe.
    Ms. Mainella. Howdy.
    Senator Thomas. Senator Salazar.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Thank you, Chairman Thomas and Senator 
Akaka. I just want to congratulate you. I have followed your 
history over a long time.
    Ms. Mainella. Thank you, Senator.
    Senator Salazar. I have had the opportunity of working with 
you on parks issues in my State, in Colorado, and around the 
country.
    Ms. Mainella. Yes, sir.
    Senator Salazar. And I am delighted that you are at the 
helm.
    Ms. Mainella. Thank you, sir. Thank you.
    Senator Salazar. Thank you.
    Ms. Mainella. You have done wonderful in Colorado. Thank 
you.
    Senator Thomas. Well, Madam Director, your statement will 
be in full in the record.
    Ms. Mainella. Yes, sir.
    Senator Thomas. And if you would like to go ahead, please.

STATEMENT OF FRAN P. MAINELLA, DIRECTOR, NATIONAL PARK SERVICE, 
DEPARTMENT OF THE INTERIOR; ACCOMPANIED BY STEVE MARTIN, DEPUTY 
     DIRECTOR, NATIONAL PARK SERVICE, AND BRUCE SHEAFFER, 
               COMPTROLLER, NATIONAL PARK SERVICE

    Ms. Mainella. Thank you, Mr. Chairman, again. And thank 
you, members of the subcommittee, for holding this hearing, and 
particularly because you are focusing on funding needs and for 
the management of the National Park Service.
    But I do want to thank you right off the bat for the 
support that you have given through not only your efforts from 
authorizing areas, but also in support of the budget, 
particularly the 2005 budget that went through that the 
President and you, as Congress, have supported.
    You gave us the largest operational increase in the history 
of the National Park Service in the 2005 budget, and I just 
want to thank you for that effort.
    And also you have continued to help us sustain ourselves at 
a 96 percent satisfaction level, and this is what the visitors 
are telling us about our parks.
    Also, I think it also is reflective of our visitor 
satisfaction in the sense that our visitation last year went up 
4 percent, which is substantial. And that is 277 million 
visitors visiting annually in our national parks.
    Another area I think that is very important is our 
volunteers. We have had volunteers in the national parks since 
their very beginning. And we were very proud that we had an 
increase of 14 percent last year in our volunteerism. So we now 
have 140,000 of those volunteers out there. Senator, you saw 
some just recently in one of our parks when you were able to be 
out there to visit.
    Also, our national parks provide annual economic benefits 
to this Nation of $11 billion annually and creation of 226,000 
jobs.
    The President has encouraged us to continue to work for 
better care of the resources, but also to make sure our 
visitors have a wonderful experience.
    One of the things that we have been working on in this past 
year has been, as mentioned earlier, operations, sustaining 
operations.
    That is the cost of what it takes to put those rangers out 
there to greet visitors, to clean those restrooms, to make sure 
that the parks are open, and for day-to-day operational needs 
of the Park Service. And again, the 2005 budget stepped us 
forward substantially.
    And the 2006 budget, what it has meant for us is an 
increase of about $51 million additionally again in the 
operations, and it covers the salaries, benefits, and fixed 
costs of all the employees of the National Park Service. That 
has been one of our challenges in the past. We have not always 
had that. And by the President stepping forward, and we ask you 
to help support that effort, you will be able to help make sure 
that our staff are out there able to provide the opportunities 
for resource protection and also visitor enjoyment.
    And as you are probably aware, the majority of our funding 
goes directly to the parks. And we are very proud of that. We 
have a very small amount that ever goes--that covers the 
Washington or regional offices.
    Also, this budget continues to help us improve on the 
condition of our assets. For example, it is--with this budget 
request, assuming that the transportation funding of $320 
million for roads in national parks are met, we will then be 
able to achieve the $4.9 billion that the President indicated 
he would like to see us spend to address the maintenance 
issues.
    As you all know, maintenance is dynamic. It is always 
underway. There are always issues that are out there for us, so 
it is a continued effort for us. But we are making a huge step 
forward with this budget.
    Also, in the 2004 budget we are continuing to--through the 
2004 budget, we have been able to achieve over 4,000 facility 
improvements, including trails, roads, et cetera. But through 
2005, and now as in our request for 2006, we are continuing to 
further enhance that by requesting $1.1 billion to help us on 
all that maintenance improvements.
    Through the maintenance history of what we have been able 
to do through 2005--excuse me, through 2004, has been to, for 
the first time ever, know where all the facilities are that we 
have in our national parks. When I came on as director in 2001, 
we did not know that.
    We also did not know what condition they were in. And we 
now have that information, and we are able to make better 
management decisions of where do we place our money and how do 
we move forward.
    And what I am probably the most proud about in the 
maintenance is we have tripled since 2001 the amount we are 
spending to do what is called cyclic maintenance, which is the 
preventive maintenance so we hope we will not be in the 
positions of having a large backlog in the future.
    Another area, though, that we continue to work on is making 
sure that we are doing all the management improvements at home 
that we can do so within our National Park Service.
    One of the areas that we have been working on, of course, 
is one I know very close to this committee's heart, which is 
the concession backlog. We are working and will have achieved 
at the end of this calendar year 477 of the 600 contracts will 
have been addressed. We still have another 100 ahead of us, but 
we will be working on that over the next year. But we are 
moving forward.
    Other things that we have done, we have created a park 
scorecard, where we actually score our parks, not only in 
need--what their needs are--but what are they doing in terms of 
using the tools that we provided, the management facility 
assessments, but also what are they doing to leverage dollars. 
We want to reward parks that are being creative and innovative.
    We are also working on our core operations analysis so that 
we actually know and it will help our funds group. And I think 
you will hear from some of those folks in a little while, to 
better understand what is core to the operations of the park in 
order to--the basic interpretation in all of the things that we 
do, resource protection, but what is also necessary for us to 
maybe make it an even greater experience. And our funds groups 
can help us with that.
    The third area we have worked on is partnership projects, 
being able to do more in partnership and making sure that those 
are done in a way that is friendly to the resource and friendly 
to the partners, as well as to the park. And we had to put some 
high level systems in place to better help us manage them.
    What we look forward to in the future is we are going to 
continue to be able to work well and serve these resources and 
make sure that we are doing the business of the national parks 
in a way that you can all be proud.
    I know my time has come to an end. So in closing I just 
would like to say that even with record funding and responsible 
stewardship, challenges always remain.
    But you can see what we are trying to do. We are trying to 
work smarter and work more efficiently in meeting those 
challenges. With your help, the budget that you helped us with 
in 2005 and with hopefully your concurrence with the present 
budget of 2006, we will continue to move forward.
    I have great employees, great volunteers, great partners. 
They are there to help us, assist in all that we do.
    And we are moving forward toward our vision for 2016, which 
is our 100th anniversary, so we are beginning to prepare 
ourselves for that.
    Thank you, Mr. Chairman. I also have Steve Martin, my new 
deputy, with me and also Bruce Sheaffer to help in answering 
any questions, if they may join me?
    Senator Thomas. Fine. Well, thank you very much.
    Ms. Mainella. Thank you.
    Senator Thomas. We appreciate your being here.
    [The prepared statement of Ms. Mainella follows:]
    Prepared Statement of Fran P. Mainella, Director, National Park 
                  Service, Department of the Interior
    Mr. Chairman, thank you for the opportunity to appear before you 
today at this oversight hearing on the National Park Service's funding 
needs for administration and management of the National Park System. 
This system consists of 388 national parks and other designated units, 
covering 88 million acres of land throughout the United States and its 
territories, and conserving a broad and diverse array of natural and 
cultural resources. Last year, visitation increased at national park 
units to 277 million.
    The fundamental approach that President Bush has taken toward the 
administration of the National Park System has been to promote better 
care of the resources under our stewardship while slowing the growth of 
responsibilities of the National Park Service so that the demand for 
funds does not grow faster than the available monies. In taking this 
approach, the Administration has focused on reducing the deferred 
maintenance backlog in our parks, assuring sufficient operating funds 
for parks, and instituting a range of management improvements to enable 
the National Park Service to do more with available resources.
                          overview of funding
    The priorities of the Administration for the National Park Service 
are expressed in the FY 2006 budget request, which totals about $2.2 
billion in Department of the Interior appropriations and $320 million 
in Department of Transportation appropriations. More than 70 percent of 
that funding is devoted to managing the National Park System, not 
including the cost of undertaking major construction or rehabilitation 
projects or acquiring land. For FY 2005, Congress provided a net 
increase of about $64 million for the operation of the National Park 
System, which resulted in an average increase to park base budgets this 
year of approximately 6 percent. The FY 2006 budget request would build 
on last year's substantial growth by increasing operations funding by 
$50.5 million above the FY 2005 enacted level, allowing for, among 
other things, increases for pay, benefits, and other fixed costs.
    One of the major challenges the National Park Service has faced in 
recent years has been the need for more security. After the September 
11 attacks, the National Park Service began focusing more law 
enforcement and security resources on icon parks, parks along the U.S. 
border, and NPS units that include infrastructure such as dams and 
reservoirs. Since 2001, the overall operational base level of funding 
for NPS law enforcement and security has increased 25 percent. 
Additional sums are being spent to improve the physical security of the 
parks that are considered more vulnerable to terrorist activity.
    The operation of the National Park System is enhanced substantially 
through non-appropriated funds and non-governmental services. In FY 
2006, we anticipate receiving about $160 million in revenue from 
recreation fees, National Park Pass fees, and transportation fees, and 
about $38 million from concessions fees. The NPS also receives a great 
deal of financial and in-kind support from cooperating associations, 
friends' groups, and other partnership entities. Many parks benefit 
tremendously from the work done by volunteers, which increased by 14 
percent in 2004, when we saw 140,000 Americans serving as volunteers in 
our parks.
                          maintenance backlog
    The FY 2006 budget request meets the President's goal of investing 
$4.9 billion over five years to address the deferred maintenance 
backlog in our parks. The FY 2006 amount toward this goal is $1.1 
billion. It includes $717 million for facility maintenance and 
construction in NPS appropriations, $320 million for park roads within 
the Department of Transportation's Federal Lands Highway Program, and 
an estimated $108 million in funding dedicated to maintenance from 
recreational fees. Park roads funding, which would bring 80 percent of 
park roads into good or excellent condition, depends upon full funding 
of the President's request and enactment of the Administration's 
proposed reauthorization of the Transportation Equity Act for the 21st 
Century (TEA-21).
    Through 2004, with the funding requested by the Administration and 
provided by Congress, NPS has undertaken over 4,000 infrastructure and 
facility improvement projects nationwide. As a result, visitors are 
seeing improved trails, more accessible campgrounds, rehabilitated 
visitor centers, better roads, stabilized historic structures, and 
reduced environmental threats through improved drinking water and 
sewage processing systems. An increased focus on cyclic maintenance 
will help ensure that recent improvements will be adequately 
maintained.
    In addition to promoting more funding for maintenance, the 
Administration has also focused on the management of facilities. The 
NPS has developed a comprehensive asset management strategy that has 
enabled the NPS, for the first time in its history, to inventory its 
assets and measure the condition of its facilities. During the past 
three years, NPS has produced a comprehensive asset inventory and 
established a NPS-wide baseline for facility conditions. We now have 
preliminary condition assessments for all 388 units, and we anticipate 
having comprehensive condition assessments for all of them by the end 
of 2006. This management tool will enable NPS to establish performance 
goals using a Facility Condition Index and target funds to the highest 
priority needs.
                     other management improvements
    The high priority that the Administration has placed on improving 
management of the National Park System is helping us meet the needs we 
face in administering this system. In addition to improving facility 
management, as described above, we have been implementing other changes 
that will have a huge, long-term positive impact on our ability to 
continue to provide good customer service to our visitors.
    One area in which we have made improvement is in our concessions 
program. Passage of the Concessions Management Improvement Act of 1998, 
which introduced more competition into the concessions contracting 
process, generated a dramatic change in the way in which the 
concessions program is conducted.
    Five years ago, the NPS concessions program was in poor shape. The 
program had been criticized in numerous reports by the Department's 
Inspector General, the Government Accountability Office, and outside 
auditors, and it faced a huge backlog of expired or soon-to-be-expired 
contracts. For the first time in NPS history, the NPS needed to award 
almost all of the approximately 600 concession contracts.
    In response, we conducted a top-to-bottom review and engaged 
PricewaterhouseCoopers to bring best practices to our efforts and 
develop protocols for contracting and contract oversight. We began to 
professionalize our workforce by hiring staff with graduate business 
degrees and developing training courses for NPS personnel. Since 2001, 
with the assistance of four top business consultants, we have awarded 
322 contracts and expect to award another 125 by the end of this year, 
bringing the total to 447. This will reduce our backlog to 
approximately 100 contracts.
    The change has not been easy for concessioners or for NPS 
personnel, and there are still issues that remain unresolved, but we 
now have a much more business-like program. We are beginning to see a 
real improvement in visitor services and a better return to the Federal 
government from concession franchise fees as well as improved 
maintenance of facilities often required in concession contracts.
    The NPS has also improved the way we manage partnership 
construction projects. For the last several years, we faced a growing 
problem of well-meaning organizations that wanted to partner with us on 
building new facilities in parks, usually visitor centers that would 
ultimately require a larger Federal contribution not only for the 
project's construction, but also for the cost of maintaining the new 
facility. Over the last year, the NPS has undertaken a complete 
inventory of all partnership construction projects of more than $1 
million and implemented a comprehensive project review process that 
will ensure that projects are mission-essential and achievable. As 
elements of this process, the NPS has instituted service-wide training, 
a project tracking system, and an accountability system that will be 
incorporated into the performance plans of regional directors and 
superintendents.
    The NPS has identified projects valued at $5 million or more at all 
stages of planning, the level that requires Congressional concurrence. 
The NPS will move ahead on projects only after the NPS leadership has 
determined that: (1) the proposed projects address NPS priorities and 
are consistent with park general management plans, (2) partners have 
the capability to raise promised funding, (3) any expected capital 
contributions from the NPS have been prioritized in the five-year 
capital plan, and (4) ongoing operation and maintenance costs are known 
and can be sustained over time. Additionally, the NPS has initiated a 
standard policy of including language in all agreements with partners 
that specifically prohibits the solicitation of funding from Congress 
outside of the budget process.
    The NPS is also working toward innovation and reform in the way it 
manages natural and cultural resources. The NPS Natural Resource 
Challenge (NRC) continues to make progress towards its goal of 
developing a scientific base of knowledge about park resources. The NRC 
is an initiative that has expanded existing inventory programs and 
developed efficient ways to monitor the vital signs of natural systems, 
enlisted others in the scientific community to help, and expanded 
natural resource conservation activities in parks. The FY 2006 budget 
proposal includes a $1 million net increase for the NRC, and includes 
sufficient funding for the monitoring of park vital signs and water 
quality in all 32 multi-park networks for the first time. This 
monitoring provides park managers with key information on the status 
and trends in park ecosystem health, defines normal limits of variation 
in measurable features, provides early warning of situations that 
require management intervention, suggests remedial treatments and 
frames research hypotheses, and in some cases determines compliance 
with laws and regulations.
    In an attempt to move toward greater levels of budget and 
performance accountability, the NPS continues to expand the use of the 
Program Assessment Rating Tool (PART) activity-based costing, and 
preliminary planning efforts associated with competitive reviews. PART 
evaluations and recommendations continue to inform both budget 
formulation and program management decisions.
    We have been working to improve our budget formulation process, 
particularly related to park specifics, by making it more transparent. 
We have initiated two new processes to meet this requirement. First, we 
have developed a park scorecard. The scorecard is an indicator of park 
financial, operational, and managerial health used to aid in the 
identification and evaluation of base budget increases for park units. 
It provides an overarching snapshot of each park's current situation by 
offering a way to analyze individual park needs and to compare these 
needs with those of other parks.
    Second, we have developed a core operations analysis process that 
integrates management tools to improve park efficiency. The process is 
designed to assist park management in making fully informed decisions 
on staffing and funding alternatives that tie to core mission goals. 
This will ensure that: funds are spent in support of a park's purpose; 
funds are spent in an efficient manner; a park's request for funding is 
credible; and there are adequate funds and staff to conserve and 
protect the resources for which parks are responsible. The 
Intermountain Region has been successfully using these analyses and we 
are already taking steps to implement the process throughout the NPS.
    The NPS maintains its support for the President's Management Agenda 
and has funding in the FY 2006 budget for improving information 
technology (IT), financial accountability, and other management 
reforms. The budget proposal includes funds totaling $6 million for fee 
program data analysis improvements, a dozen assorted IT initiatives, 
including security upgrades and the implementation of an enterprise 
server network, and reform of the Federal Land Acquisition 
administrative function. The FY 2006 budget also proposes a series of 
management actions, including rental space consolidation and fleet 
management reforms that will bring over $4 million in savings to the 
government.
    In addition, we have achieved savings in our travel costs by taking 
steps to ensure that all domestic and international travel by NPS 
employees is an efficient and effective use of resources. Since 2002, 
we have reduced travel costs by 25 percent.
    In summary, the improvements we are making in administering and 
managing the National Park System are enabling us to be much more 
effective and efficient stewards of the magnificent parks and other 
resources that we are responsible for managing. That concludes my 
statement, and I will be happy to answer any questions you or other 
members of the subcommittee may have.

    Senator Thomas. I suppose there is never sufficient money. 
Where would you say are the most difficult problems? Where are 
the areas in which limitations on money have the most impact in 
your operations?
    Ms. Mainella. Well, I think that we have found--of course, 
you know, we want to make sure that we are taking the dollars 
that we have and using them as effectively and efficiently. And 
through our scorecard, we have been rating that--and I will ask 
Mr. Sheaffer to possibly elaborate, because he created the idea 
of the scorecard--is to focus on, again, how well are serving 
the resource and the visitor, how well are we using all the 
tools that are currently available to us, and how well are we 
leveraging dollars. Those are kind of the areas that we are 
focusing on at this point in time. Is that what you are looking 
for?
    Senator Thomas. Well, yes. I am just sort of saying where 
do you think you are unable to do--are there things you are not 
able to do on this budget?
    Ms. Mainella. I think the challenges have been just that--I 
guess the bottom line is I feel they are meeting all of the 
aspects that the President has asked us to do, that you have 
asked us to do through this budget.
    I think the area there that we want to continue to have 
help with is the road money, the road repairs. That one is 
reflective again of $320 million in the roads budget for the 
Federal highways bill, depending on how that proceeds. And I 
know you are looking at that bill as we speak.
    And anything below the $320 million will make it difficult 
for us to achieve the goals.
    Also, of course, one of the other areas is that we do have 
Homeland Security and other areas that are--you know, that can 
be challenging for us as any of those areas increase in cost.
    Senator Thomas. Do you have highway money in your budget, 
or is there some money in the highway budget for parks? Is 
there----
    Ms. Mainella. There is. The request in the President's 
budget is for $320 million. We currently receive $165 million 
annually. And the budget, as you are probably aware, road--
parks like in Yellowstone and others, I mean roads are such a 
critical area. And the $320 million is our request.
    Senator Thomas. Generally, what is the total value of fee 
demo, the fee program plus the contributions that are made for 
improvements and so on?
    Ms. Mainella. I am going to start at the fees. That is 
about $160 million a year, which has been so valuable. We thank 
you for the leadership that this committee has provided with 
those fees. And then also with partnerships, I think, that 
comes in at about $70 million--Bruce--I believe is my memory. 
So those are areas that come from fees and from partnership.
    Senator Thomas. What did you say? $130 million?
    Ms. Mainella. $160 million from fees.
    Senator Thomas. I see.
    Ms. Mainella. And $70 million coming from our partners.
    Senator Thomas. I see, so----
    Ms. Mainella. So we do get a lot of outside help.
    Senator Thomas. That is pretty substantial. Yes. That is 
good. 388 parks?
    Ms. Mainella. Yes, sir.
    Senator Thomas. And then you have other things, like 
heritage areas and this and that.
    Ms. Mainella. Yes, we do.
    Senator Thomas. In terms of your budgets and so on, how 
much do you think about your capacity to expand?
    Ms. Mainella. Well, I think that right now our focus is on 
trying to take care of the things we do have.
    Heritage areas have been an area, though, that we have 
found have been good partnership areas for us where they do not 
have to become part of the National Park System, as far as 
becoming a unit of the National Park Service and are meeting 
some of the needs of resource protection if they are a national 
effort.
    I think, as you know, Mr. Chairman, we are all working to 
look at a greater criteria through some legislation in the 
heritage areas to better see that the heritage areas come in 
solely as an area that recognizes the national significance of 
those areas, without having to be coming in to the Park 
Service.
    Senator Thomas. Well, I am sure none of us wants to say we 
should stop having parks. On the other hand, there needs to be 
some criteria for them to meet.
    Ms. Mainella. Yes.
    Senator Thomas. I believe you have organized, have you not, 
a business council that gives some advice, or observation and 
assistance in terms of managing, particularly in the 
concessions?
    Ms. Mainella. Yes. We have created a concession advisory 
board that works with us very closely. And they have helped us 
in coming up with recommendations to better improve our 
management of concessions. And we are very pleased with those. 
I know that Steve Martin, our deputy, has recently testified on 
that effort and could elaborate further, if you would like.
    Senator Thomas. Yes. That would be fine.
    Mr. Martin. Yes. I think that the advisory board is a 
really important extension of the Park Service in the fact that 
we are able to bring on and have consultation, close 
consultation with key members of the concession and business 
community on how we should manage the park programs.
    And we have gotten a series of recommendations from them, 
actually, very recently on some of the more controversial or 
areas that need further work, either on our policies, our 
regulations, or others. And we are going through those now and 
feel that we are going to be able to work on those, make some 
changes and perhaps change some of our policies and how we 
manage things.
    But we have just recently gotten those, and we should have 
in the next few months some additional information on things 
like possessory interest and surrender interest and some of the 
other controversial components of the bill.
    Senator Thomas. That is good, I think, to bring into your 
staff, which basically has professionalism in other areas, this 
business sense.
    Mr. Martin. Yes. And we are also, on that same line just 
real quickly, doing more to enhance our abilities by bringing 
business people into the park service.
    And we have a number of programs. Some of those Bruce is 
working on, some that we are working on in the field to 
increase our capacity of business professionals to help us 
manage not only concessions, but our finances and human 
resources as well.
    Senator Thomas. Great. I see. Good.
    Senator Salazar.
    Senator Salazar. Thank you, Chairman Thomas.
    Director Mainella, I have three questions for you.
    Ms. Mainella. Yes, sir.
    Senator Salazar. And I will give you all three of them to 
give you an opportunity to respond to all three of them in one.
    With respect to the law enforcement and security needs of 
the park system, I know the world has changed post-9/11, lots 
of money has gone into protecting the Washington Monument, 
Lincoln Monument, et cetera. A comment on where you are in 
terms of security needs within the National Park System in this 
post-9/11 world, if you would, No. 1.
    No. 2, I know that the National Parks Retiree Association 
has made a recommendation on the creation of a blue ribbon 
commission to look at national parks in the 21st century. Would 
such a commission be something that would be helpful if it was 
mandated, hopefully with your cooperation, out of this 
Congress, looking ahead at the 21st century?
    And, third, comment on the National Park System's efforts 
with respect to ethnic, racial and gender diversity within your 
employment. I know you have a long history of being a champion 
of those things in Florida. I would like your perspective on 
that issue within the National Park System. So those three 
issues.
    Ms. Mainella. Thank you. On security, one of the areas, of 
course, is that has certainly increased. About 25 percent of 
our budget now--or at least we have had an increase of about 25 
percent in our law enforcement responsibilities since 9/11. And 
that has been something that we have taken on. And I just want 
to make sure everyone knows we feel our parks are very safe, 
and we are--we have made great efforts in all the protection. 
Our great law enforcement people, including our U.S. Park 
Police, have done an excellent job. But, again, it has added an 
additional financial responsibility to our budget.
    The second area dealing with--let me see. What was my 
second question?
    Mr. Sheaffer. 21st century.
    Ms. Mainella. 21st century, thank you.
    Dealing with a blue ribbon commission coming on, that is 
something--we have a National Park Advisory Board now that 
serves as an advisory entity to me and assists in looking at 
those kinds of issues.
    Now, whether we would like to elaborate further on that, I 
think that is--you know, we are a partnership-oriented entity, 
and always like that input and involvement. I think we have to 
just be clear of what we want to challenge them with, because 
now the National Park Advisory Board has been helping me with 
looking at benefits of health--how parks play in the health and 
well being, to looking at philanthropy, to looking at many 
other areas. And so we do have that entity already that exists, 
and maybe we could even spin off a subsection from that.
    The third area is part of my goals, which is the 21st 
century relevancy of the National Park System. When I came in, 
I was very concerned that we were probably not as diverse as we 
needed to be. And we certainly have not achieved all those 
goals yet, but we have come a huge way in being relevant in the 
21st century.
    If you look at my leadership team today, you will find that 
the makeup is made--I have three African-American leadership 
people. I have one Hispanic, the first Hispanic ever to serve 
in a leadership position on the National Park Service; myself, 
as the first woman to be National Park Service director, again, 
a very diverse entity in leadership. So I am kind of not just 
talking the talk, I am walking the walk.
    And we are working to try to aggressively increase our 
involvement through the Junior Ranger Program and through other 
efforts to get out to young people to get them involved in the 
national parks through not only coming to visit a park, but 
also through what may be called the ``Web Ranger Program,'' 
which will reach out to communities, young people all the way 
through their teens, to be involved in our national parks.
    Mrs. Bush has agreed, through the National Park Foundation, 
to be a chair of raising over $10 million for that effort.
    Senator Salazar. Thank you, Director. And on that third 
point, if there is anything that I can do to be helpful, do not 
hesitate to call my office.
    We had a youth resources program that you might remember in 
Colorado.
    Ms. Mainella. I do remember that and you----
    Senator Salazar. And Laurie Matthews was also involved, 
too.
    Ms. Mainella. Laurie Matthews, and she is a very good 
friend and has been someone that has been a great leader for 
us.
    Senator Salazar. Well, let me know how I can help on that 
point.
    Back on the law enforcement point in the post-9/11 world, I 
hear you telling us that there has been a significant 
additional increase just in terms of resources to deal with the 
real world that we live in right now.
    Ms. Mainella. Yes, sir.
    Senator Salazar. Have the decisions to deal with the 
security needs in our park system and to implement the 
resources to make sure that we have safe and secure places 
affected what we are doing in other places within the National 
Park System? Have we had to siphon off money, if you will, from 
maintenance and other kinds of things to make sure that we are 
dealing with the issue of security?
    Ms. Mainella. The money that comes to--that we are using 
right now--and I will ask Bruce if there is any elaboration on 
that--the money that we are currently using to pay for those 
programs are directly out of the normal park and--National Park 
Service funding. So we have made priority decisions. And we do 
feel that the safety of the visitor and the resource is high, 
so we have made those value decisions. So it has, you know, 
come from our coffers to make those payments.
    Senator Salazar. Okay. Thank you.
    Ms. Mainella. Thank you.
    Senator Thomas. Okay. Thank you.
    Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman.
    Director Mainella, it is good to see you.
    I wanted to thank you for your visit to the Great Smoky 
Mountain National Park, even in the midst of a big rainstorm. 
The volunteers there appreciated it.
    They were disappointed that the President almost got there, 
but could not come. But we were glad to get him close to it, 
and his remarks were appreciated.
    Ms. Mainella. Yes, sir.
    Senator Alexander. I also want to congratulate you for--and 
the President, for getting into the budget, as I understand it, 
much of the salary increase, so that we do not run into this 
provision that we have heard several times before, when we 
appropriate an increase in funds, and the park--the Smokies or 
the Yellowstone never really see it for maintenance because it 
has to go for salary increases. So I hope, Mr. Chairman, that 
we can be supportive of that.
    And I have three questions--I think Senator Salazar set a 
good example--and let me try to state them succinctly, and then 
I will sit back and you may wish to just give me a response in 
writing, if you want to.
    Ms. Mainella. Thank you, sir.
    Senator Alexander. I do not really need the answers now, 
but they are important to me.
    Question No. 1, it has to do with the Big South Fork Scenic 
and Recreation area, which is--it was created in 1974 in 
Kentucky and Tennessee, but it is managed by you.
    Ms. Mainella. Yes, sir.
    Senator Alexander. 900,000 visitors. And my question is: Is 
there a way that we might, say, over the next year, take a look 
at how that recreation area and the Great Smoky Mountain Park 
might complement one another? They are not far away. And the 
Smokies is managed as a wilderness area, which we like.
    Ms. Mainella. Yes.
    Senator Alexander. But in the Big South Fork, there are 
125,000 acres where some hunting is allowed. There are 250 
miles of trails that can be used by horses. That is an 
important economy development there. So my question about that 
is, No. 1, could your department, say, in a year or sometime 
convenient for you, give me or this subcommittee, if the 
chairman would like to have it, a briefing on how the two can 
be related in your management?
    And, second, would you take a look at whether a fee 
demonstration program at the Big South Fork would be 
worthwhile? Because their new management plan shows a number of 
ideas for involving other counties nearby with visitor centers. 
Some of that money could be used to staff them. And since the 
Cherokee National Forest has had such a good experience with 
the fee demonstration program, this might be a possibility. So 
that----
    Ms. Mainella. I would be very honored to look into that for 
you. And, again, our parks tend to want to work together and 
partner. And our new superintendent at the Smokies, Dale 
Ditmanson, I know would like to look at how we might work with 
South Fork.
    Senator Alexander. Well, if we could have some----
    Ms. Mainella. We will do a more in depth for you.
    Senator Alexander [continuing]. The committee or me and----
    Ms. Mainella. Right. We will do an in-depth briefing for 
you.
    Senator Alexander [continuing]. Do some sort of feedback 
sometime later, I would appreciate that.
    Ms. Mainella. We will do that, sir. Thank you.
    Senator Alexander. The second area has to do with cell 
towers. In September 2004, there was an attempt to put three of 
these big new cell towers in the Great Smokies along the scenic 
route. And Congressman Duncan and I wrote to you and asked that 
it not be done, and it was not done. And I thank you for that.
    We now have, based on my research, about 128,000 of these 
cell towers that have suddenly sprung up in the country. We all 
like our Blackberries and cell phones, but they are, to put it 
generously, junk piles in the sky. And they ought not to be, in 
my opinion, in front of Old Faithful and in the Great Smokies 
and in the Grand Canyon. And anything the Park Service could do 
to discourage that or to create an alternative to that, I would 
appreciate it.
    And I was just--my second question is: Would you be willing 
to give me a letter about what the department policy is on cell 
towers in national parks and other highly scenic areas?
    Ms. Mainella. I would be glad to do so, sir. Thank you. And 
I will follow up on that for you.
    Senator Alexander. And my last question has to do with what 
I call a conservation royalty. When in States like Wyoming we 
drill on Federal land for oil, there is such a thing as a State 
royalty and the State of Wyoming gets 50 cents out of every 
dollar, which I support and am----
    [Laughter.]
    Senator Thomas. You are supposed to.
    [Laughter.]
    Senator Alexander. Right. But on several different 
occasions, I have suggested, along with Senator Landrieu and 
Senator Murkowski--several of us are interested in this--the 
idea of a conservation royalty, which would take some of the 
revenues from drilling for gas or oil--for example, offshore 
gas or oil--and use it to fully fund conservation projects 
around the country. The idea being that if we have a burden, an 
environmental burden, we can create environmental benefit.
    This was recommended by President Reagan's Commission on 
Americans Outdoors, of which I was chairman 20 years ago----
    Ms. Mainella. I remember that.
    Senator Alexander [continuing]. And know very well. And we 
had it. We had it in the American Outdoors Act that Senator 
Landrieu and I have recommended. It was in the ANWR 
legislation. I am going to keep trying to stick the concept in 
lots of different places, and I would like to know what the 
administration's attitude about that might be.
    Ms. Mainella. Thank you so much. And, again, we will 
respond back to you on that. Thank you.
    Senator Alexander. Thank you.
    Senator Thomas. Thank you very much, sir. Just a couple 
more fairly quick questions here.
    What would you say is the--you have talked and the 
President has talked about a backlog and I think had agreed to 
try and fix it over a period of 4 years or whatever--what 
percentage of that backlog do you think still exists?
    Ms. Mainella. We have, again, tried to look at our backlog 
and--because it is again a dynamic entity, and we have made so 
much success. In fact, again, with this budget, it will be $4.9 
billion we will have spent on this on the backlog.
    What we are trying to do now is understand what our full 
needs out there are, and we are doing these--the complete 
comprehensive reviews to better understand that. But we have 
really made huge success in being able to move forward. But, 
again, the area that I mentioned earlier where we had the most 
challenges is roads.
    And that is the area that we are using what is called an 
FCI, a facility condition index. And we are doing quite well in 
scoring on that for our facilities where we are having the 
most--where we are not having as much success is on our roads. 
And if that road bill passes and we are able to get increased 
funding, preferably up to the $320 million, that will allow us 
to be able to make a huge increase in our success rate with our 
roads.
    And I do not know, Steve, if you have any other follow-up 
on that from facilities. I know in each park you might even 
give an example of something might--that you have done out 
West.
    Mr. Martin. Well, we have been doing a lot in a lot of 
different areas. Certainly, you know, the work that you have 
done in support on the fee moneys over the last number of years 
really helped significantly in that regard.
    And I think the other component of what we are doing with 
this analysis of the buildings is what it takes to maintain 
them over the long haul. And I--and really for the first time 
in these last 3 or 4 years, we have made great strides. And 
that is the life cycle cost. And it is one where the 
initiatives of, you know, meeting the President's commitments 
are really important. But then we also, over time, are going to 
need to continue to look at how--you know, what is the best way 
to continue to maintain these buildings. And many of them are 
historical structures and take--you know, you are familiar with 
the Yellowstone lodges and others that take a significant 
amount of work.
    And so that is sort of the next piece of this that we are 
continuing to analyze: once we get them fixed up, then how do 
we keep them fixed up, and what are the costs, and changing our 
practices and changing our training in the field to become 
better and more effective at how we do that as well.
    Senator Thomas. Yes. Good.
    Mr. Martin. But I agree with what Fran has said that right 
now the focus is on the roads, and that is sort of one of the 
next pieces that is really important to us.
    Senator Thomas. Many of the things that occur in parks also 
are in forests and State lands and surrounding areas and so on. 
What do you--do you try to get agencies to come together, for 
instance, on things like buffalo or something to where there 
seems like there is a resistance among agencies to work 
together to come to a solution. How do you deal with that?
    Ms. Mainella. One of the things that has helped us--and I 
personally believe that when the President brought me on as 
director, part of the reason was because of the partnership 
efforts we had done and had demonstrated in Florida. And what 
we have been able to do here on a national level is we actually 
had a conference recently called--this is about a year and a 
half ago--called joint ventures. And it brought together all 
the several land managers.
    Now, lots of times our Federal land managers work well 
together on the ground out in the field, but in Washington it 
was not quite as successful. So now we got together again 
there--in fact, we signed a pledge, a commitment that we, as 
Federal land managers, as the Corps, ourselves, Fish and 
Wildlife, and all the different land managers, we agreed to 
work together and cooperate in efforts. And we meet basically 
about three to four times a year, a non-crisis time, and talk 
about issues of how we work better together.
    And we have found that since then that has happened, we are 
doing better on that. It is not perfect yet, but we have come 
so much further, and we call it the seamless network of parks 
or public lands. And we think we are getting there.
    Senator Thomas. That is good. You mentioned that on the 
ground sometimes it works together a little different here.
    Steve, I might ask you since you have just come from being 
a regional. It seems when you have this big of an operation, 
then you have policy decisions made here and so on to ensure 
that those are implemented in 388 different places. How do 
you--do you feel like the regional people are involved enough 
to oversee that and cause it to happen?
    Mr. Martin. I think we are definitely getting there. And 
that has been one of the charges that Fran has had to the 
regional directors, is to begin to, in our working teams, make 
sure that Parks understand the current policy directions and 
how we work together.
    And I really think that there is quite a shift taking 
place. And it is not something that has been said, and I think 
it has been going on for certainly the last 10 years in--with a 
lot of focus. But in working together with other agencies, but 
then also trying to understand the bigger picture of how we are 
going to manage Parks.
    It used to be in the parks, I think we had a lot of 
independence in how we managed those units. And maybe for that 
year, that was probably really good and--but I think we are now 
at a point where being part of this bigger network, working 
with the States, working with the counties, working with the 
other agencies, is absolutely critical to delivering services 
to the visitors and also being good at stewardship 
responsibility.
    And I think more and more--so we just got a great example 
with some of the work that is being done on some of the 
management planning in the greater Yellowstone area in working 
with the State and any number of agencies.
    Senator Thomas. Yes.
    Mr. Martin. And I think that that is becoming more of the 
everyday way of doing business as opposed to the exception.
    Senator Thomas. Yes. Well, that is good. And I think you 
are a good one to do that. You had a good relationship in the 
Tetons with the gateway communities and the others.
    One very quick question and quick answer, if you can, Fran.
    Ms. Mainella. I hear you.
    Senator Thomas. What are you doing--how are you doing on 
the competitive sourcing where you have maintenance jobs or 
other kinds of jobs that are not professional? Are you using 
the competitive idea, A-76?
    Ms. Mainella. What we are looking at under the competitive 
sourcing is a revised A-76 circular that allows us to do what 
is called preliminary planning efforts where we go into parks 
and we analyze and look at the staff and have them work 
together to look at how we can be the most efficient and 
effective possible.
    Sometimes it comes out that the way they are organized is 
the best way as it is today. If it is--if not, they often come 
up with suggestions. And we have a consultant that works with 
them, a private sector consultant to have them look at that.
    Then it comes to me for review. And I decide whether it 
actually goes out for a competitive sourcing true bidding 
process. At this point, for example, just recently we just 
announced that there are three areas that are being looked at, 
but it is all preliminary planning efforts. It is not putting 
them out to bid, and so I want to be clear about that, first of 
all. Thank you.
    Senator Thomas. Okay. Do you have any further questions, 
Senator?
    Senator Alexander. Is there time for me to ask a couple?
    Senator Thomas. Yes, sir.
    Senator Alexander. Thank you very much, Mr. Chairman. I 
will keep them to the point.
    One, what is--in the Great Smokies, as you and I have 
discussed many times before, we have this terrific use, 10 
million visitors a year, three times as many as Yellowstone--
that does not make it better.
    [Laughter.]
    Senator Alexander. I never should have done that.
    [Laughter.]
    Senator Alexander. I wanted to make a point. Yellowstone 
gets $6.8 million a year from fees to help maintain it, and it 
has 3 million or so visitors.
    The Smokies has 10 million visitors and gets $1.3 million 
in fees. And the reason is of our own doing--I mean it is the 
only park, as I understand, that was ever given to the National 
Park Service, and by the people of North Carolina and 
Tennessee. And part of the deal was no entrance fee----
    Ms. Mainella. Right.
    Senator Alexander [continuing]. At least on the Tennessee 
side.
    Ms. Mainella. Right.
    Senator Alexander. Now, are there other--but you do 
collect--the fees you collect now come from such things as 
what? Where does the $1.3 million in fees come from?
    Ms. Mainella. Right now, it is camping and we are 
retaining--we have been able to retain that. I think that you 
have helped us be able to allow that to take place.
    Mr. Martin. Camping fees.
    Ms. Mainella. Camping fees, right.
    Mr. Martin. Mostly.
    Senator Alexander. Well, there--the fee demonstration 
program has been a big success here. And I congratulate Senator 
Thomas and others who had put it in long before I got here and 
saw it through some--it has had some problems. But on the other 
hand, it has had some pretty significant successes.
    I mentioned the Cherokee Forest, right next to the Smokies, 
which I think gets $2 million a year. And they do not know what 
they would do without the money----
    Ms. Mainella. Right.
    Senator Alexander [continuing]. Because of all of the 
demands on them. So I wanted to--I really look forward to 
working with you as you go through your management plans and as 
you consider what to do, not so much on reversing the decision 
for an entrance fee, because I think that would take so long 
and would be so complicated that it might not be worth doing. 
But as we look at the services and other activities in the 
park, if there is a way to supplement fees that are still 
reasonable and that can be used 100 percent in the Smokies, I 
think there would be widespread understanding of that in our 
area.
    And I will hope you will consider that as part of your 
plans.
    Ms. Mainella. I will be glad to look at that. In fact, the 
superintendent had--and I had discussed when I was just out at 
the Smokies about is there any way, because at this point with 
the fees legislation that you have put through, 80 percent 
normally stays at the parks, with the fees like at Yellowstone 
or Grand Tetons. And right now we do not have that opportunity.
    Senator Alexander. Yes.
    Ms. Mainella. We are able--through your help, we were able 
to keep 100 percent of the camping fees at the Smokies, but 
that has been our only use fee.
    But I think we need to look at other opportunities that 
would still meet the expectations of the residents of Tennessee 
and North Carolina, but also help the park continue to move 
forward.
    Senator Alexander. And just two other quick points. I hope 
you also weigh in in administration discussions about clean 
air. The Smokies, of course, have--and other national parks 
have clean air problems, but the work we have done with the 
Environmental Protection Association shows that if the 
President's Clear Skies Proposal on sulfur will reduce from 3 
million tons per year permitted from power plants to 2.5 
million tons a year, that it would improve the quality of the 
air 10 to 15 percent.
    In fact, no area of the country would benefit more from 
that than would the Great Smokies/Knoxville area. And that is a 
reasonable strengthening of the President's proposal. The 
President's proposal is a good framework. I just thought it 
does not go as far as it could, especially in the sulfur area.
    And so I would--I know that when those matters are 
discussed that lots--that the national parks have a role in 
talking about that. And I hope you will speak up, because if 
there is just one word I hope you would remember, it is sulfur. 
The President deserves great credit for what he is doing with 
diesel fuel and diesel engines to take effect next year. That 
would help parks all over the country and the Smokies.
    And the other thing is I hope you will persuade the IRS 
that it can support the legislation Senator Salazar and I and 
others introduced, which would allow taxpayers to have a check-
off for the National Park System. And if somebody would ask, 
``Well, why single out the national parks?'' I think the answer 
is, ``Because the great American outdoors is unique to this 
country. It is what makes us American as much as anything 
else.''
    It would be the same thing--Egypt has its pyramids, Italy 
has its art, England has its history, we have the great 
American outdoors--and that check-off would help greatly.
    Ms. Mainella. Thank you for your support.
    Senator Alexander. Thank you, Mr. Chairman, for the time.
    Senator Thomas. Okay. Thank you very much. Thank you all. 
Thank you for what you do. I know it is a difficult task, but I 
also know that your folks are very committed, and I know that 
you are too. So, thank you.
    Ms. Mainella. Thank you so much. Thank you, Senators.
    Senator Thomas. We look forward to working together.
    Okay. Our second panel will be Mr. Greg Moore, executive 
director, Golden Gate National Parks Conservancy, San 
Francisco; Mr. Lee Werst, president, Association of National 
Park Rangers, Orem, Utah; and Mr. Robert Arnberger, Coalition 
of National Park Services Retirees, Tucson, Arizona.
    Okay. Welcome, gentlemen. Glad to have you here.
    As before, your complete statements will be put in the 
record. And if you will kind of go by the 5-minute rule here, 
why we would appreciate it.
    Why do we not start with you, Mr. Moore?

   STATEMENT OF GREG MOORE, EXECUTIVE DIRECTOR, GOLDEN GATE 
         NATIONAL PARKS CONSERVANCY, SAN FRANCISCO, CA

    Mr. Moore. Thank you very much. Thank you, Mr. Chairman and 
Mr. Vice Chairman, for the invitation to testify today about 
the roles of philanthropy and volunteerism in our national 
parks.
    I am Greg Moore, the executive director of the Golden Gate 
National Parks Conservancy. We are a nonprofit organization 
supporting the National Park Service's mission at the Golden 
Gate National Recreation Area in the San Francisco Bay area.
    Since our inception in 1981, the Parks Conservancy has 
provided about $80 million of support to park projects and 
programs.
    But the Conservancy is just one of over 100 similar 
nonprofit organizations nationally, known as cooperating 
associations and friends groups, working to support the mission 
of the National Park Service.
    In total we provide over $100 million yearly in 
philanthropic aid and help support the 140,000 volunteers who 
are donating 5 million hours annually to the national parks at 
an estimated value of almost $86 million.
    Philanthropy has been deeply connected to our national 
parks from their very beginning. Few things inspire Americans 
like the immense natural and physical beauty and historical 
poignancy of our parks.
    And more Americans are becoming aware that the care of our 
national parks not only requires the efforts of the National 
Park Service, but our direct support and involvement as well.
    Organizations like our Parks Conservancy work very closely 
with the National Park Service to understand its priorities and 
to create a strategic course working in unison.
    The Conservancy helps the Service recognize which of its 
priorities are likely to have donor appeal, and we work 
together to ensure that donor-supported projects and programs 
are operationally and financially sustainable.
    Throughout the park system, friends groups, and cooperating 
associations have been at work delivering programs, projects, 
and volunteers that add lasting value to our national parks, 
whether at Golden Gate, at Yellowstone, at the Rocky Mountain 
National Park, or at the Great Smoky Mountains National Park. 
These philanthropic results have depended upon National Park 
Service leadership, commitment, professionalism, and active 
staff presence in the parks.
    Americans do not see their philanthropic support as a 
substitute for the role of the National Park Service or as a 
replacement for the funding provided through their tax dollars.
    Philanthropic donors do not have the interest, the 
expertise, or the capacity to substitute for vital Federal 
responsibilities.
    Increasingly, donors are making their contributions 
contingent on the assurance that park operating budgets are 
adequate to preserve and care for the gifts, the improvements 
that result from their donations.
    And generous contributors want to be ensured that Federal 
funds are not removed or diminished as a result of donor 
dollars being available. To do so would be a major disincentive 
to philanthropic giving and a lethal blow to its future in the 
National Park System.
    David Rockefeller, Junior, philanthropist and former vice 
chair of the National Park Foundation, has stressed the 
important distinction between Federal and philanthropic roles 
in our national parks. Our philanthropic mission, he said, is 
``not to build roads or employee housing units, nor to build or 
maintain infrastructure, but to create strong connections 
between visitor and place.'' He called this distinction the 
``Bright Line'' between Federal responsibility and private 
opportunity.
    To conclude, philanthropy and volunteerism are and will 
continue to be essential and positive forces in achieving the 
mission of the National Park Service. Over the past decade, 
these forces have grown dramatically in scale and impact, and 
will continue to grow if Americans are asked to share in the 
vision for our parks, are given respect for their views and 
involvement, are provided with clear and expeditious ways to 
contribute, know that their contributions will be effectively 
stewarded by the National Park Service, and are treated with 
sincere appreciation as they donate time and resources.
    The National Park Service policy and legislative 
authorities should embrace and enhance philanthropy and 
volunteerism. Federal funding and policy could better motivate 
philanthropy to our parks through greater use and flexibility 
with challenge grants, more efficient methods to combine 
Federal and philanthropic dollars toward a desired outcome, 
quicker systems to review and approve philanthropic gifts and 
campaigns, more openness to donor recognition, and a general 
culture of gratitude and respect to those generous enough to 
give to our parks.
    Our continued momentum will be greatest when leveraged from 
a firm foundation of Federal funding, National Park Service 
professionalism, and effective non-profit partners well aligned 
to the Park Service mission.
    Upon that foundation, we can and will achieve the margin of 
excellence so essential for our national parks, which 
collectively represent the very best of America's scenic, 
natural, and historic treasures.
    Thank you so much for the opportunity to testify, and I 
would be happy to answer any questions you might have.
    Senator Thomas. Okay. Thank you very much, sir.
    [The prepared statement of Mr. Moore follows:]
   Prepared Statement of Greg Moore, Executive Director, Golden Gate 
             National Parks Conservancy, San Francisco, CA
    Mr. Chairman and honorable committee members, thank you for the 
invitation to testify today about the roles of philanthropy and 
volunteerism in our national parks. I'm Greg Moore, Executive Director 
of the Golden Gate National Parks Conservancy, a nonprofit membership 
organization that works to preserve the Golden Gate National Recreation 
Area, to enhance the experiences of park visitors, and to engage 
community members in conserving the parks for the future. The Parks 
Conservancy was established in 1981, and since then it has provided the 
National Park Service with nearly $80 million in support for park 
projects and programs.
    The Parks Conservancy is one of over 100 nonprofit organizations 
nationally, working as cooperating associations and friends groups, to 
support the mission of the National Park Service. These organizations, 
along with the National Park Foundation, engage community members and 
the private sector in philanthropy and volunteerism and help protect, 
enhance and interpret park resources. Many have been active for 
decades. Recently, the Yosemite Association celebrated its 80th 
anniversary and the Rocky Mountain Nature Association has been serving 
this national park since 1931.
    In total, these organizations provide over $100 million annually in 
philanthropic aid to the National Park Service and strive to make 
lasting positive impacts on park resources and on the park visitor 
experience. Today, I will address four key questions:

  <bullet> What motivates philanthropy and volunteerism in our national 
        parks?
  <bullet> How do federal funding and the work of the National Park 
        Service enhance philanthropy and volunteerism?
  <bullet> What specifically, do the American people consider the 
        federal responsibility to our national parks?
  <bullet> What can the future bring in terms of philanthropy and 
        volunteerism?
  what motivates philanthropy and volunteerism in our national parks?
    The American ethic of charity and volunteerism has made a 
remarkable impact on our national parks. In addition to more than $100 
million in annual philanthropic support, last year 140,000 volunteers 
donated 5 million hours to the national parks at a value of $85.9 
million\1\. What motivates this level of commitment?
---------------------------------------------------------------------------
    \1\ National Park Service, Volunteers-In-Parks
---------------------------------------------------------------------------
    Few things inspire Americans like the immense natural and physical 
beauty and the historical poignancy of national parks. We understand 
that national parks require not only the care and investment of the 
National Park Service, but our direct support and involvement as well. 
Americans entrust the National Park Service to lead the protection and 
stewardship of these cherished places and, in effect, to be the 
ultimate caretaker of our nation's heritage. We expect and respond to 
this leadership. Throughout the National Park system, whether at Golden 
Gate, Yosemite, the USS Arizona Memorial, Yellowstone, or Rocky 
Mountain National Park, philanthropic projects have been inspired by 
visionary Park Service leadership, implemented by effective and 
eloquent nonprofit partners, and funded by generous donors.
    Organizations like the Golden Gate National Parks Conservancy open 
direct and active channels through which Americans can contribute their 
time and charitable gifts to augment the critical work of the National 
Park Service. In the San Francisco Bay Area, community members share a 
very strong connection to the Golden Gate National Recreation Area and 
recently contributed $34 million for the restoration of Crissy Field, a 
former army airfield in the Presidio on the shore of San Francisco Bay. 
A lead gift of $18 million by the Evelyn and Walter Haas, Jr. Fund, 
followed by a major public campaign of the Parks Conservancy, rallied 
the community behind this project. Over 2,000 gifts and 3,200 
volunteers transformed this national park site. Today, these donors and 
volunteers retain their commitment and generosity to our parks.
    To make projects like Crissy Field meaningful to the community that 
supports them requires not only executing these park transformations, 
but an ongoing commitment to preserve over time what has been 
transformed and restored together. Federal operating funds can be 
leveraged with volunteer support in this long-term stewardship. As one 
example, each year close to 16,000 people donate over 350,000 hours of 
volunteer time to preserve park habitat, lead interpretive tours and 
support education programs for children throughout the Golden Gate 
National Recreation Area. This type of support is motivated throughout 
the National Park system by welcoming volunteers as part of the ``park 
team,'' giving them fulfilling work and expressing active appreciation.
   how do federal funding and the work of the national park service 
                 enhance philanthropy and volunteerism?
    Effective partnerships depend deeply on the National Park Service 
tradition, commitment, professionalism, knowledge, and active staff 
presence in our parks. These capacities are essential to philanthropy 
working in a dynamic and effective way. There are federal 
responsibilities, resources, and talents that philanthropy would never 
want to replace, and realistically, philanthropy does not have the 
capacity to serve as a substitute. In fact, philanthropy depends upon 
these National Park Service attributes and resources to serve as its 
foundation for its positive impact in the parks.
    Americans do not see their philanthropic support as a substitute 
for the role of the National Park Service. Donors and volunteers are 
keenly aware of the Park Service role and follow its lead in addressing 
park needs and enhancements. But increasingly donors are also making 
their contributions contingent on the assurance that park budgets will 
be there to preserve and care for the positive park improvements 
resulting from their donations. In fact, removing or diminishing 
federal funds when donor dollars are available would be a fundamental 
disincentive to giving and a serious, perhaps lethal blow to the future 
of national park philanthropy.
    A proactive and sustaining approach involves a deep partnership of 
the Park Service, donors and nonprofit support groups. Organizations 
like the Golden Gate National Parks Conservancy work very closely with 
the National Park Service to understand its priorities and to chart our 
strategic course in unison. The Conservancy also helps the Park Service 
understand which of its priorities are likely to have donor appeal, and 
we work together to ensure that donor-supported projects and programs 
are operationally and financially sustainable.
 what do donors and volunteers consider the federal responsibility to 
                          our national parks?
    Speaking at a recent conference on partnerships for public lands, 
David Rockefeller Jr., philanthropist and former vice chair of the 
National Park Foundation, stressed the important distinction between 
federal and philanthropic roles in our national parks. Our mission, he 
said, is ``not to build roads or employee housing units, nor to build 
or maintain infrastructure, but to create strong connections between 
visitor and place.'' He called this distinction the ``Bright Line'' 
between federal responsibility and private opportunity.
    The healthiest public-private partnerships result from a shared 
vision and an appropriate balance of investment. Donors want to be 
actively engaged in creating the vision for our national parks, while 
respecting key federal responsibilities. What is seen as the federal 
responsibility? Donors tend to see this clearly. The philanthropic 
sector expects a fundamental foundation for donors to build upon--a 
foundation comprised of adequate ``park base'' operational support, 
basic park infrastructure, visitor safety, essential resource 
management, key amenities, upkeep of National Park facilities, 
expertise in interpretation, and Park Service staff in direct contact 
with visitors.
    Current realities pose some challenges to this view. Many park 
operational budgets are stretched thin and even essential park 
infrastructure improvements need to be phased in over many years. Basic 
services can be heavily strained. But these are not functions that can 
or should be funded through nonprofit support groups and philanthropy. 
In the words of my colleague, Ken Olson, who leads Friends of Acadia, 
``friends groups are here to provide the margin of excellence, not the 
margin of survival.'' This margin of excellence comes through the over 
$100 million in annual giving and over 140,000 volunteers across our 
National Park system. It rests upon an essential foundation: the Park 
Service annual budget of over $2 billion and an NPS workforce of over 
20,000 permanent and seasonal employees.
 what will the future bring in terms of philanthropy and volunteerism?
    Philanthropy and volunteerism are, and will continue to be, 
essential forces in achieving the mission of the National Park Service. 
These forces will grow in scale and impact if Americans are asked to 
share in the vision for our national parks, given respect for their 
views and involvement, provided with clear and expeditious ways to 
contribute, and treated with sincere appreciation as they donate time 
and resources.
    National Park Service policy and legislative authorities should 
embrace and enhance philanthropy and volunteerism--and facilitate their 
flourishing on behalf of our parks. Federal funding and policy could 
significantly motivate philanthropy to our parks through greater use 
and flexibility with challenge grants, more efficient methods to 
combine federal and philanthropic dollars toward a desired outcome, 
quicker systems to review and approve philanthropic campaigns and 
gifts, more openness to donor recognition, and a general culture of 
gratitude and respect to those generous enough to give to our parks..
    Our continued momentum will be the greatest when leveraged from a 
firm foundation of federal funding and national park professionalism. 
This foundation can be strengthened by recognizing philanthropic 
partners (the National Park Foundation, friends groups, and cooperating 
associations) as strategic and valued allies in the vision for our 
national parks and working with them in an open, facilitating and 
collaborative manner. Upon that foundation, generous Americans and the 
philanthropic sector can and will achieve the margin of excellence--a 
margin so essential to our national parks, which preserve the best of 
our country's natural, scenic and cultural heritage.

    Senator Thomas. Mr. Werst.

STATEMENT OF LEE WERST, PRESIDENT, ASSOCIATION OF NATIONAL PARK 
                       RANGERS, OREM, UT

    Mr. Werst. Mr. Chairman, thank you for inviting the 
Association of National Park Rangers to share with you our 
thoughts on the funding needs for the National Park Service.
    My name is Lee Werst. I am president of ANPR and a current 
National Park Service employee. I am appearing before you today 
on behalf of the Association, and am doing so on my own time 
and at my own expense. And as such, my statement should in no 
way be construed as representing the National Park Service, the 
Department of the Interior, or any organization other than 
ANPR.
    Last November, we wrote a letter to the congressional 
budget conferees for the fiscal year 2005 budget complimenting 
them on the generally favorable budget prospects for the 
National Park Service.
    The 2005 budget, as enacted, combined the interests of the 
conferees and the administration in its budget request, 
resulting in a 2-percent increase in total discretionary 
spending. Mr. Chairman, we would like to thank Congress for its 
continuing work and support of the National Park Service.
    And in our testimony today, we would also like to help 
identify what we believe are continuing shortfalls in the field 
due to increasing personnel and other costs that need to be 
addressed for the long-term.
    The fiscal year 2006 budget, as submitted by the 
administration, provides an overall decrease of 2.8 percent in 
total discretionary appropriations from fiscal year 2005. On 
the surface, there are some apparent pluses, which we support, 
despite the overall decrease. For example, the budget category 
of visitor services is at a 10-year high as a percentage of 
total National Park Service discretionary spending.
    That being said, it still remains that the overall 
discretionary appropriation has declined in real terms since 
the last substantive increase in fiscal year 2001. 
Discretionary spending in fiscal year 2001 was nearly $2.3 
billion. The fiscal year 2006 budget request is $2.249 billion, 
for a dollar decrease of nearly 2 percent.
    When adjusted for inflation, that amounts to almost a 9-
percent decrease over those 5 years.
    In the past 15 years, ANPR has tried to share stories from 
the parks about conditions that might reflect on proposed 
legislation or policy, and I would like to again share some of 
these with you.
    At Sequoia-Kings Canyon National Park in California, great 
strides have been made to eradicate illegal cultivation of 
marijuana ``plantations'' within the park boundaries. Project 
funding to target eradication and interdiction efforts has 
helped the park to destroy much of these crops.
    However, to fully control and completely eliminate this 
damaging activity, you must look beyond just project funding to 
prevent the initial planting and cultivation which will take 
ongoing investigation and apprehension of perpetrators.
    To adequately undertake this mission, the park estimates a 
need for an additional 4.8 FTE for the long-term and a $448,000 
budget increase.
    Other parks--in other parks, the impacts of budget 
shortfalls can be illustrated by looking at the findings from 
published business plans prepared and audited for the National 
Park Service.
    As one example, at Shenandoah National Park, the business 
plan for fiscal year 2003 showed a need of $19.6 million to 
fully fund operations, but had available only $12.8 million 
from all funding sources, an operating shortfall of $6.8 
million. One of the impacts of that is that although Shenandoah 
has one of the worst air pollution problems of any park in the 
country, its air resources specialist position has now been 
vacant for nearly 2 years because of insufficient funding.
    Another example is that the park offered nearly 800 fewer 
ranger-led interpretive programs in fiscal year 2004, when it 
offered 1,032--less than it did in fiscal year 2002, when it 
offered 1,824.
    Other examples, such as this, are included in our written 
testimony.
    Mr. Chairman, we would also like to comment on some funding 
successes that we believe are taking place. One of those, of 
course, is the fee demonstration program, which was replaced in 
2005 by the Federal Lands Recreation Enhancement Act, which has 
a 10-year sunset.
    This has been a very successful program, and it is an 
example of how Congress has really helped to support park 
resources and helps to support our operations.
    As one Western park superintendent recently voiced, ``Fee 
demo is excellent!'' And we agree with that, and we thank 
Congress and the administration in continuing this important 
and critical program. But we also urge permanent legislation 
prior to the 10-year sunset of the new current program in order 
to continue infrastructure support, increased resources 
protection, and visitor use programs.
    One of the more promising ideas which we have seen recently 
is the proposed National Park Centennial Act. We are encouraged 
by this effort to bring the National Park Service to a 
sustainable level by 2016, and we would be pleased to provide 
further testimony, if desired, at any future hearings on this 
bipartisan legislation.
    In summary, Mr. Chairman, we continue to be optimistic, yet 
cautious, about the next 10 years, as there is great potential 
for the 2006 and future budgets to result, if not careful, in 
overall deterioration in field-level staffing in parks and 
important program activities.
    However, we look forward to supporting National Park 
Service management in its efforts to effectively implement the 
budget as finally enacted, and joining with them and with 
Congress in identifying the long-term needs and short-falls 
facing the Service in the next 10 years, particularly at the 
field park level.
    Thank you again, Mr. Chairman, for inviting the Association 
of National Park Rangers to testify here today. And I will be 
glad to answer any questions you may have, or assure that the 
Association provides you further information on any issue that 
I cannot answer to your satisfaction.
    Senator Thomas. Thank you very much.
    [The prepared statement of Mr. Werst follows:]
      Prepared Statement of Lee Werst, President, Association of 
                         National Park Rangers
    Mr. Chairman, members of the Subcommittee, thank you for inviting 
the Association of National Park Rangers (ANPR) to share with you our 
thoughts on the funding needs for the National Park Service.
    My name is Lee Werst. I am President of ANPR, and a current 
National Park Service employee. I am appearing before you today on 
behalf of the Association, and am doing so on my own time and at my own 
expense. As such, my statement should in no way be construed as 
representing the National Park Service, the Department of the Interior, 
or any NGO other than ANPR.
    The Association of National Park Rangers, formed in 1977, is a 
professional organization comprised of dedicated National Park Service 
employees from all regions, salary grades and specialties. ANPR is 
neither a union nor a bargaining unit, but rather is a volunteer 
association formed to advance the ranger profession and support the 
perpetuation of the National Park System and the National Park Service.
                             funding needs
    Last November, we wrote a letter to the Congressional budget 
conferees for the fiscal year 2005 budget complimenting them on the 
generally favorable budget prospects for the National Park Service. We 
wrote:

          On behalf of the approximately 1,000 members of the 
        Association of National Park Rangers (ANPR), we thank you for 
        your leadership in the development of the fiscal year 2005 
        Interior appropriations bill . . . Over the years, inflation, 
        cost-of-living increases, natural disasters, and more recently, 
        homeland security have eroded park budgets to the point that we 
        must either ``lapse'' vacant positions or trim park services. 
        In many cases, parks have had to do both. . . . We hope that, 
        within present fiscal constraints, you will give the highest 
        priority to National Park Service funding, with special 
        attention to the park operations account.
          Thank you for your ongoing commitment to our National Park 
        Service and System

    The 2005 budget as enacted combined the interests of the conferees 
and the administration in its budget request, resulting in a 2% 
increase in total discretionary spending. Mr. Chairman, we would like 
to thank Congress for its continuing work and support of the National 
Park Service with its funding needs in these fiscally difficult times. 
In our testimony today, we would also like to help identify what we 
believe are continuing shortfalls in the field due to increasing 
personnel and other costs that need to be addressed for the long-term.
                 fiscal year 2006 administration budget
    The fiscal year 2006 budget as submitted by the Administration 
provides an overall decrease of 2.8% in total discretionary 
appropriations from fiscal year 2005. On the surface, there are some 
apparent pluses, which we support, despite the overall decrease. For 
example, the budget category of visitor services--which includes 
interpretation & education, ranger law enforcement (excluding the 
United States Park Police), visitor use management, health and safety, 
and concessions--is at a 10-year high as a percentage of total NPS 
discretionary spending (14.1% in 1997, to 15.4% in FY06 budget 
request).
    In addition:

  <bullet> Ranger law enforcement funding and protection is at a 10-
        year high as% of total Visitor Services (33.5% in 1997, to 
        35.5% in 2006 request); and
  <bullet> Interpretation and education is at a 10-year high as% of 
        total discretionary spending (6.9% in 1997, to 7.9% in 2006 
        request), although as a% of total Visitor Services is basically 
        flat over 10-years.

    That being said, it still remains that the overall discretionary 
appropriation has declined in real terms since the last substantive 
increase in FY 2001. Discretionary spending in FY 2001 was nearly $2.3 
billion. The FY 2006 budget request is $2.249 billion, for a dollar 
decrease of nearly 2%. Adjusted for inflation, this amounts to nearly 
9% decrease in the past 5 years. When you add the annual adjustments in 
federal salaries, overall discretionary funding in real terms is 
noticeably diminished.
    We are not preaching ``the sky is falling'' in the 2006 budget. 
Rather, we wish to assist policy makers and appropriators in 
understanding the long-term concerns of field rangers and other 
employees beyond a one-year budget picture.
                              park stories
    In testimony over the past 15 years before this and other 
Congressional committees, ANPR has tried to share stories from the 
parks about conditions that might reflect on proposed legislation or 
policy. I would like to again share some of these with you.
    For instance, at Sequoia-Kings Canyon National Park in California, 
great strides have been made to eradicate illegal cultivation of 
marijuana ``plantations'' within the park boundaries. Project funding 
to target eradication and interdiction efforts has helped the park, 
along with many cooperating agencies, to destroy much of these crops. 
The park greatly appreciates, and has successfully applied, the project 
funding it has received.
    However, to fully control and completely eliminate this damaging 
activity, we must look beyond just project funding. The park has 
redirected as much internal funding as possible to continue this 
effort. Further redirection of funds would require the closure of some 
facilities or the neglect of park visitors or resources. The ranger 
staff is currently spread very thin, thus putting full prevention 
efforts beyond the ability of the current budget to accomplish. To 
prevent the initial planting and cultivation of this clandestine 
activity will take on-going investigation and apprehension of 
perpetrators, as well as other technical measures. To adequately 
undertake this mission, the park estimates a need for an additional 4.8 
FTE for the long-term and a $448,000 budget increase.
    The impact of this illegal activity, which takes place in many of 
our parks, is not only to the society at large, but also to sensitive 
and valuable park resources. The growers provide water for cultivation 
to these fields by damming park streams, laying thousands of feet of 
plastic irrigation pipes, and indiscriminately using fertilizer and 
other chemicals. This causes runoff and pollution of streams and other 
public resources. This disturbance of natural plants and soil opens the 
way for the introduction of invasive exotic plant species, thereby 
requiring further time and resources for their removal. Permanent funds 
are needed to deter the damage to park resources for the long-term.
                         business plan examples
    In other parks, the impacts of budget shortfalls can be illustrated 
by looking at the findings from published business plans prepared and 
audited for the National Park Service by MBAs for numerous parks across 
the system. Here are some of the findings for three parks:
    At Gettysburg National Military Park, the business plan identified 
an operations and routine maintenance annual shortfall of nearly $3.6 
million in the FY 2001 budget, compared to an actual budget of just 
over $6.1 million in that same fiscal year--a 37% shortfall. Since that 
time, the park's financial situation has not improved. Although the 
park saw an overall increase in operations funding to $6.45 million in 
FY 2005, there was an estimated decline in actual purchasing power over 
that period of $734,900. In order to live within this shortfall, park 
managers have reduced staff from 141 permanent and seasonal full time 
equivalent positions in FY 2002 to 122 FTEs in FY 2005.
    For Shenandoah National Park, the business plan for FY 2003 showed 
a need of $19.6 million to fully fund operations, but had available 
only $12.8 million from all funding sources, an operating shortfall of 
$6.8 million. Although the park's inflation-adjusted base budget 
increased 14% between 1992 and today, personnel costs increased by 
21.3% in the same period. The impacts?--Although Shenandoah has one of 
the worst air pollution problems of any park in the country, it's air 
resources specialist position has now been vacant for nearly two years 
because of insufficient funding. Another example: The park offered 
nearly 800 fewer ranger-led interpretive programs in FY 2004 (1,032) 
than it did in FY 2002 (1,824).
    At Delaware Water Gap National Recreation Area, the park's business 
plan analysis for FY 2002 identified $15.9 million in needed annual 
operations funding and 238.4 positions needed in a full time equivalent 
workforce (FTE). However, the park had an $8.9 million total budget and 
only 134.6 FTE. Of that sum, nearly $8.5 million was obligated to 
personnel costs, leaving only about half a million for all other needs, 
including utilities, supplies, vehicle costs and materials.
    Mr. Chairman, these are just a few examples from the field. We also 
would like to make a few brief comments about overall NPS funding needs 
and funding successes.
                         employee benefit costs
    The inflation of salary and personnel costs can quickly lead to 
parks needing to make significant reductions in visitor services and 
resource protection to absorb these costs. We want to emphasize our on-
going concern that these costs be fully covered in each successive 
budget.
    One example of these increases is the fact that as more employees 
retire under the Civil Service Retirement System (CSRS), the percentage 
of remaining employees under the Federal Employees Retirement System 
(FERS) will continue to grow, eventually to 100%. While saving overall 
federal dollars in future retirement annuities, the year-to-year cost 
to the NPS in covering FERS benefits as opposed to CSRS, which is the 
less-expensive system to fund up-front, will only grow. For example, in 
2001, nearly 68% of all federal employees were working with FERS 
benefits. The percentage of direct salary compensation that an agency 
is required to pay for these benefits grew from 28% of salary in 1990 
to 35% in 2005.
    This is not an argument about FERS. It simply illustrates that over 
the next ten years nearly all NPS employees will require greater up-
front benefit compensation under FERS, which averages 30% of base 
salary versus 14% under CSRS. This, combined with the fact that overall 
personnel costs often exceed 90% in many parks, will require an even 
greater budgetary support.
                                fee demo
    The previous fee demo program, which was replaced in 2005 by the 
Federal Lands Recreation Enhancement Act (with a 10-year sunset), has 
succeeded in providing substantial financial support to many parks for 
infrastructure needs, maintenance backlog, and visitor uses. This has 
been a very successful program of park and resources support provided 
over the past many years by Congress. As one western park 
superintendent recently voiced, ``Fee demo is excellent!'' We agree, 
and thank Congress and the administration in continuing this important 
and critical program. We urge permanent legislation prior to the 10-
year sunset to continue infrastructure support, increased resources 
protection, and visitor use programs.
                      national park centennial act
    One of the more promising ideas we have seen to address the NPS 
long-term backlog needs, and provide substantial needed funding for the 
natural and cultural resources challenges, is the proposed National 
Park Centennial Act (introduced in the Senate by Senator McCain as S. 
886 on April 21 and in the House by Congressman Souder as H.R. 1124 on 
March 2). Mr. Chairman, while we understand this is not a hearing on 
this bill, we are encouraged by this effort to bring the NPS to a 
sustainable level by 2016, the l00th anniversary of the establishment 
of the NPS in 1916. While it may not provide the ability to restore 
permanent staff levels lost by attrition, setting a goal for the decade 
makes sense. It is analogous to the very successful ``Mission 66'' 
initiated in the 1950s that looked forward over a ten-year period to 
identify park deficiencies, and to help bring the NPS housing, visitor 
centers, and other facilities up to modem standards of visitor services 
by the 50th anniversary of the NPS in 1966. We would be pleased to 
provide further testimony if desired at any future hearing on this bi-
partisan legislation.
                               conclusion
    In summary, Mr. Chairman, we continue to be optimistic, yet 
cautious about the next ten years or so, as there is the great 
potential for the 2006 and future budgets to result, if not careful, in 
over-all deterioration in field-level staffing in parks and important 
program activities. However, we look forward to supporting NPS 
management in its efforts to effectively implement the budget as 
finally enacted, and joining with them and with Congress in identifying 
the long-term needs and short-falls facing the Service in the next 10 
years, particularly at the field park level.
    Thank you again, Mr. Chairman, for inviting the Association of 
National Park Rangers to testify here today. I will be glad to answer 
any questions you may have, or assure that the Association provides you 
further information on any issue that I cannot answer to your 
satisfaction.

    Senator Thomas. Mr. Arnberger.

 STATEMENT OF ROBERT ARNBERGER, ON BEHALF OF THE COALITION OF 
          NATIONAL PARK SERVICES RETIREES, TUCSON, AZ

    Mr. Arnberger. I am Robert Arnberger, recently retired from 
the National Park Service in August 2003 after a 34-year career 
working in ten different parks and managing one regional 
office.
    My last two assignments before my retirement were as the 
superintendent at Grand Canyon National Park and as Alaska 
regional director.
    Today, I represent the 395-member Coalition of National 
Park Service Retirees, former employees who have joined 
together in a non-partisan group to bring their views and 
expertise to the table in the national endeavor to protect our 
National Park System, some 12,000 years worth of cumulative 
experience.
    Despite the fact that the Congress has established strong 
standards of care for the units of the National Park System, 
financial and political support from successive Congresses and 
Democratic and Republican administrations have almost never 
provided the necessary resources that the National Park Service 
requires to fully carry out its mission.
    Why do the headlines seem never to change? The deferred 
maintenance backlog continues to grow even as we try to reduce 
it. Reduction of services is real and happening, and Federal 
assets are deteriorating.
    This Nation's growing deficit, the war on terror, and 
diminishing Federal budgets would suggest that our efforts to 
properly care for our parks will never catch up to the needs.
    The Coalition recognizes and greatly values some of the 
gains over the years to the National Park Service budget, but 
the needs have far outstripped the gains. Professional reports 
that document the need for more law enforcement rangers 
languish without effective action.
    There are fewer educational programs, fewer resource 
protection patrols, reduced visitor center hours, reduced 
maintenance, and reduced seasonal employees.
    I recently talked to two park superintendents who indicated 
that 92 percent and 97 percent of their budgets were fixed 
costs. Each year it costs more to run our parks, and those 
increases have never really been covered.
    A program division chief in a large Eastern national park 
relates, ``Every year, the operational budgets are hit by 
assessments, from Congress and the administration. In fiscal 
year 2004 we incurred an across-the-board reduction; our salary 
increase is not fully funded; a further .646 percent Department 
of the Interior reduction; a .59 percent reduction called for 
in the Omnibus Bill; a uniform assessment; an assessment for 
computer software licensing; and a 2 percent assessment from 
our regional office to help them help us.''
    The National Park Service is caught in a self-perpetuating 
downward spiral that devalues the very purposes why these 
places have been set aside in a park system of global pre-
eminence. The rush to privatize and outsource devalues the 
importance of the ``people's parks'' and their professional 
staffs, and has wasted valuable time and money to evaluate what 
park management responsibilities can compete with the private 
sector.
    Budget attrition forces greater reliance by parks on 
additional private sources such as increasing numbers of 
volunteers, interns, foundations, donations, and friends groups 
being counted upon to carry out the basic functions of managing 
a national park, rather than providing a ``margin of 
excellence'' as they used to do.
    While we celebrate and congratulate the spirit of 
volunteerism, friends groups, and foundations, the inability of 
the Federal Government to carry out its core responsibilities 
has blurred the bright funding line that must exist between the 
responsibilities of the Government and those of an assisting 
partner.
    Even with all that generosity of volunteerism and 
philanthropy, the system is still falling behind.
    In summary, rather than focus only on failures and fault--
there is plenty of it to be spread around--let us instead 
celebrate the American optimism found in our National Park 
System with a fresh, bold, and renewed commitment to better 
care for our national legacy. The solutions to solving the 
problems are not exclusively based in budget health and 
increased funds, but also in developing a renewed bipartisan 
political commitment to solving long-term problems with 
something more than short-term solutions.
    There is an annual shortfall of approximately $600 million 
required to meet operational needs in the National Park 
Service. A planned and phased reoccurring budget increase will 
restore service vital to operational capacity.
    The budget hemorrhage must be halted, because today's 
deficits are tomorrow's backlog, and we doom ourselves to the 
continued repetition of headlines that accentuate our failures 
rather than celebrate our successes.
    We recommend convening a non-partisan National Parks 
Centennial Commission dedicated to restoring the values of our 
National Park System by evaluating the mission and roles of a 
national system of parks for the 21st century, and deriving 
from that true budget and true personnel needs and the 
appropriate governance models that are required.
    Create a bold, multi-year plan focused upon the future of 
our National Park System, returning it to greatness by the 
centennial anniversary of the National Park Service in 2016.
    We retirees stand ready to continue to work, as we did in 
our careers, and carry that on into our retirements. We are 
still involved and we still care, and we are still here to give 
assistance where we can. Thank you, sir.
    Senator Thomas. Good. Okay. Well, thank you. Thank you very 
much for being here.
    [The prepared statement of Mr. Arnberger follows:]
 Prepared Statement of Robert Arnberger, on Behalf of the Coalition of 
                     National Park Service Retirees
    Thank you, Mr. Chairman, for the opportunity to appear before this 
subcommittee which is examining the management and operational capacity 
of the National Park Service. I am Robert Arnberger, recently retired 
from the National Park Service in August, 2003. Before my retirement I 
dedicated 34 years to the protection of our national park system 
working my way up the ladder from seasonal park ranger, to park 
historian and interpreter, to protection ranger, Chief Ranger, to 
Superintendent and finally to Regional Director. My last assignment as 
a Superintendent was at Grand Canyon National Park managing one of our 
nation's greatest ``crown jewels'' from 1994-2000. My last assignment, 
from which I retired, was the Alaska Regional Director in charge of 
over 54 million acres of our nation's wildest land. I spent virtually 
my entire career in the field familiar with all aspects of operations 
that are required to carry out the National Park mission.
    Today, I represent The Coalition of National Park Service Retirees, 
former employees who have joined together in a non-partisan group to 
bring their views and expertise to the table in the national endeavor 
to protect our National Park System. Many of the Coalition's 390 
members were senior leaders who received awards for outstanding 
stewardship of America's top natural and cultural resources and 
represent more than 12,000 years of cumulative experience in managing 
our nation's park system.
    I congratulate you on the focus and scope of today's hearing. 
America's national park system needs more champions like yourself, and 
others, because without champions the system of parks as we have known 
them will become an unfortunate footnote of our nation's history, 
rather than a glowing example for the nation's future. Despite the fact 
that the Congress has established strong standards of care for the 
units of the national park system, financial and political support from 
successive congresses and Democratic and Republican Administrations 
have almost never provided the necessary resources so that the National 
Park Service can indeed ``. . . conserve [the resources] and provide 
for the enjoyment of the same in such manner and by such means as will 
leave them unimpaired for the enjoyment of future generations.'' One 
former senior manager of the Park Service in the Coalition summed up 
the situation this way: ``The headlines are always the same''. The 
deferred maintenance backlog continues to grow and today's park 
operational deficits become tomorrow's backlog. Looking in the crystal 
ball of the near future considering this nation's growing deficit, the 
war on terror, and diminishing federal budgets suggests that our 
efforts to properly care for our national heritage found in the parks 
will never catch up to the needs. The national park system does not 
suffer alone in trying to carry out the grand democratic ideals of our 
nation's way of life under increasingly difficult circumstances. Just 
balancing the federal budget is daunting, much less coping with the 
myriad other problems of leading and managing our democracy. Since 
champions of the park idea are found throughout our Congress and our 
society we believe that there is still an opportunity to continue the 
legacy of American parks and assure their rightful place in our 
American culture.
    The Coalition recognizes some of the gains over the years to the 
National Park Service budget but the needs have far outstripped the 
gains and there is still much to do. The headlines repeat themselves 
about deferred maintenance needs and operational shortfalls at parks 
all across the country. Professional and objective reports that 
document the need for more law enforcement rangers languish without 
effective action. Budget deficits have created severe staff shortages 
at all levels which have reduced abilities of parks to provide for the 
enjoyment of park visitors, to protect them during their visits, assure 
the roads, restrooms, sewer and water systems meet standards, basic 
science and historic preservation requirements are carried out. A year 
ago the Coalition released the findings of a new national survey based 
in part on information from 12 representative U.S. national parks. The 
Coalition report found the following: budgets were down at eight of the 
12 parks; employee levels were reduced at all of the parks; six of the 
12 parks already had or would cut visitor center hours; all six of the 
surveyed historic parks would allow key resources to further 
deteriorate without needed maintenance; nine of the 12 parks had made 
cuts that would result in reduced experience for visitors; and, most 
surprisingly, some parks were even cutting vital law enforcement 
positions needed to protect visitors and natural and cultural 
resources--even though NPS policy specifies ``no net loss'' in these 
positions. In summary, the Coalition's research, speaking directly with 
park managers, found that many parks were leaving permanent jobs 
unfilled, reducing the hiring of needed seasonal employees, shortening 
visitor seasons, curtailing visitor center hours, eliminating 
interpretive programs, and cutting back on resource protection patrols. 
Frankly, they have no other options. Last year the Administration 
called these ``service-level reductions'' to lighten the blow of what 
they really are--they are cuts, pure and simple.
    Field operations have been cut to the bone and there is no room for 
continued cuts. Indeed, maintaining the status quo for ``deferred 
opportunities in the future'' is not sufficient either because the 
status quo is already below the standard required to carry out core 
mission responsibilities. I talked to one field superintendent two 
weeks ago who indicated 92% of his budget was in fixed costs. Each year 
it costs more to run our parks and those increases are never really 
covered. A senior division chief in one of our largest eastern parks 
reflects what really happens: ``year after year Congress authorizes 
mandatory pay increases to federal employees without fully funding 
them. In FY 04, we received a 4.1% pay increase with less than a 1% 
park budget increase. As managers, we groan when we see proposed salary 
increases because we know it will diminish our ability to fulfill our 
mission--and at the same time we are happy for our staff who work so 
hard''. Additionally, a factor sometimes forgotten relates to the 
conversion of the federal retirement system from Civil Service to FERS. 
This same division chief relates, ``With the federal match of 
retirement accounts, overhead for employees has skyrocketed from about 
11% to close to 50% in some cases and as Civil Service employees retire 
replaced by FERS employees the salary overhead for parks increase. It 
seems as if the budget increases we do get do not accommodate this 
easily predictable demographic trend.'' The parks do not face these 
issues alone. The Washington Office and Regional Offices face similar 
problems. I managed a Regional Office and can accurately say that these 
offices provide desperately needed technical and staff assistance to 
all the parks. Yet, the operational budgets that get to the parks are 
impacted by the lack of funding at all levels and this division chief 
relates, ``every year the operational budgets are hit by assessments--
from Congress and the Administration. In FY 04 we incurred an across-
the board reduction; a further .646% Department of the Interior 
reduction; a .59% reduction called for in the Omnibus Bill; a uniform 
assessment; an assessment for computer software licensing; and a 2% 
assessment from our Regional Office to help them help us''.
    The National Park Service is caught in a self-perpetuating downward 
spiral that devalues the very purposes why these places have been 
determined to be the most significant sites of our nation's natural and 
cultural heritage and set aside in a national park system of global 
pre-eminence. The rush to ``privatize and outsource'' to commercial 
interests devalues the importance of the ``people's parks'' and has 
wasted valuable time and money to evaluate what park management 
responsibilities can compete with the private sector. This has not only 
devalued the importance of these national landscapes and historic 
shrines as just another ``commercial enterprise'' but has sent a 
similar message to stressed, under-funded and underappreciated 
professional staffs who do jobs no one else in this country can do. The 
reduced buying-power of budgets that actually reach the parks creates 
staff attrition and inability to carry out the National Park Service 
core mission. This attrition forces greater reliance by parks on 
additional private sources such as increasing numbers of volunteers, 
interns, foundations, donations and friends groups being counted upon 
to carry out the basic functions of managing a national park, rather 
than providing a ``margin of excellence'' as they used to do. While we 
celebrate and congratulate the spirit of volunteerism, friends groups, 
and foundations, the inability of the federal government to carry out 
its core responsibilities has blurred the bright funding line that must 
exist between those responsibilities of the government and those of an 
assisting partner. This places a heavy burden upon the philanthropic 
organizations seeking funds for parks who must answer queries about why 
the government is unable to adequately fund our parks and questioning 
the true commitment of this nation to adequately provide for its 
national park system. And the sad truth is that all of those outside 
sources combined are actually not filling the gap in the basic 
functions. Even with all that generosity of volunteerism and 
philanthropy, the system is still falling behind.
    Rather than focus on failures and fault--though there is much fault 
to spread around in both political parties and numerous 
Administrations--the Coalition believes we should celebrate the success 
of the national park system to present day--and there is much success 
to be shared amongst us all. Successive generations of Americans, 
speaking through their elected representatives, have decided that these 
places are special and merit the most special protection in perpetuity. 
Let us celebrate this American optimism found in our national park 
system with a bold and renewed commitment to better care for our 
national legacy. The solutions to solving the problems are not 
exclusively based in budget health and increased funds, but also in 
developing a renewed bipartisan political commitment to solving long 
term problems with something more than short-term solutions. We are in 
this ``for the duration'' and we must develop better long-term support 
systems that are consistent in growing the park system forward 
responding to this need.
    The Coalition of National Park Service Retirees has offered 
suggestions about how we might end this downward spiral, based upon a 
report released in September 2004 titled, ``A Call To Action: Saving 
Our National Park System'', a copy of which we provide to the Committee 
to be submitted to the formal hearing record.

  <bullet> There is an annual shortfall of approximately $600 million 
        required to meet operational needs in the National Park 
        Service. A recurring budget increase will restore Service 
        ranger protection and education programs, fill lapsed positions 
        throughout the Service, provide facility managers with funds 
        required to care for federal assets, and continue the recent 
        programmatic gains in science and resources management. The 
        budget hemorrhage must be halted because ``today's deficits are 
        tomorrow's backlog''.
  <bullet> It is time to invigorate a national dialog to explore the 
        issue of governance of our national park system to determine 
        how our government can best carry out its role, on behalf of 
        the people, to preserve our system of national parks and to 
        pass them on unimpaired to future generations. It is time to 
        end the repetition of headlines about park deficits, deferred 
        maintenance, and reduced visitor services. We recommend 
        convening a non-partisan National Parks Blue Ribbon Commission 
        dedicated to restoring the values of our national park system 
        by evaluating the mission and roles of a national system of 
        parks for the 21st century, and deriving from that the true 
        budget and personnel needs and the appropriate governance 
        organizational models. The Commission would report to Congress, 
        the President and the American public. Let this effort create a 
        bold, multi-year ``Keeping the Promises'' plan focused upon the 
        future of our park system within the broader national and 
        international context of environmental management, the 
        retirement of deferred projects, and the restoration of 
        operational budgets returning our park system to greatness by 
        the Centennial Anniversary of the National Park Service in 
        2016.

    Working with all the champions of our national park system, the 
Coalition of National Park Service Retirees stands ready to continue 
the work we carried out as respected career professionals on into our 
retired life--to assure our parks are preserved and enjoyed by our 
citizens leaving a legacy to be proud of for the generations yet to 
come.

    Senator Thomas. Mr. Moore, as you look at the role of 
volunteers and the role of philanthropic groups, are there any 
changes that you think would make the program work better or 
that would be beneficial for what you are seeking to do?
    Mr. Moore. Well, as we have seen, the Americans gravitate 
very naturally to the national parks in terms of their giving 
and generosity of time. And the changes, I think, that could 
help that giving more along would be, for example, the ability 
to more effectively combine donor dollars with Federal dollars 
for fund raising campaigns, possibly better recognition of 
donors in parks, and just kind of swifter systems of approval 
of fund raising activities.
    Senator Thomas. Do you think that people who visit the 
parks, do they know what the volunteers have done? I remember, 
for instance, a company that put in the boardwalk around Old 
Faithful, and they put little signs up, not huge signs, but 
little signs, so people did know and appreciate that. Is that 
the case with the volunteer?
    Mr. Moore. Yes. I think so. At our park, for example, we 
have 16,000 volunteers, almost an entire small town of 
volunteers helping the park. And they are recognized both 
directly by the National Park Service staff and at times 
through events and through on-site recognition of their work.
    Although I think it is at times hard for the American 
public, who see our parks as beautiful as they are and with the 
wonderful appearances that they give, to understand that there 
is a need and a call for action for them and an opportunity for 
them to contribute back. But the word is getting out, obviously 
when you look at the volunteer numbers.
    Senator Thomas. Yes. I think so. And the Junior Ranger 
program is designed to be able to get people to understand what 
parks are about and so on.
    Mr. Werst, what--as you operate now, what would you say is 
the No. 1 issue facing park rangers?
    Mr. Werst. Well, the staffing, I believe. The way things 
are going right now with our budgets, as you have heard here 
before, mandatory pay raises and things like that, it is just 
starting to really eat away. And you can actually see that 
attrition taking place in the staffing, which means you do not 
have a ranger--enough rangers there to do all the programs they 
might have done 5 years before. Perhaps there is not a law 
enforcement ranger available to do a patrol in a certain area 
that maybe 5, 10 years ago, there was--things like that.
    And I really see that as probably being our most 
challenging aspect right now.
    Senator Thomas. Have you served where border patrol and so 
on was important, like Organ Pipes or whatever?
    Mr. Werst. I have not been down near one of the borders, 
no, sir. I have been at Carlsbad Caverns National Park. That 
would be the closest I have come to an international border, 
but I have not experienced the same types of things that the 
folks at Organ Pipe have.
    Senator Thomas. Yes. That is pretty tough stuff. They spend 
almost all of their time and energy looking--trying to take 
care of illegal immigrants and drugs coming across. Of course, 
they are right on the border, and that makes it a hard thing.
    Obviously, most everyone does not have enough money. Are 
there things from an organizational structural management 
standpoint that you think could be changed that would pick up 
some of the slack?
    Mr. Werst. Could I get back to you, sir? I would have to 
think about that for a little bit and----
    Senator Thomas. Yes. But you do not sense mismanagement as 
being a major function then?
    Mr. Werst. I do not believe so, sir, no. You know, I 
believe that the National Park Service management is honestly 
trying to manage things as well as they possibly can, and we 
try to help them as best as we can. So I really do not think 
that mismanagement is really a major factor.
    Senator Thomas. Yes. And it is tough.
    Mr. Arnberger, I would certainly--as I said, there is never 
enough money. I think, as a matter of fact, over the last 4 or 
5 years, there has been a pretty substantial increase in park 
budgets. Now, this year is at least proposed to be down. We do 
not know where it will be when it is over, but is there, 
again--let me ask you kind of the same question, do you think 
there are major things that could be done to more efficiently 
operate or changes that could be made structurally that would 
make it work better?
    Mr. Arnberger. First of all, I would reply that there is 
always efficiencies that can be sought for and looked for.
    Senator Thomas. That is right.
    Mr. Arnberger. And anybody that says that something is 
purely--is 100 percent efficient is lying to you, as you know. 
So there is always places to find efficiencies.
    So the real question is effectiveness. And I think that it 
is pretty clear to our group that for several decades, the 
National Park Service has been operating at much less than what 
it needs. Witness the very fact that we have a deferred 
maintenance budget, and witness the fact that we have 
operational challenges. Those things come over a long period of 
time, and not solving them on a regular and recurring basis has 
led us to where we are at.
    I guess, you know, there is always places where you can 
make some changes and so forth, but I think I would prefer to--
and I give you this analogy not in humor, but the Park 
Service--you know, treading water is a real practical short-
term strategy for staying afloat. But ultimately, in the long 
term--the long term consequence and practical eventuality is 
drowning.
    And the story is not doom and gloom. And the story is not 
one of beautiful sunsets as well. But we are in this place of 
treading water. And it is our belief that it is time to strike 
out, to do something different, and to see if we can retire 
those vexing headlines that have been facing us for years after 
years with something else.
    Senator Thomas. You mentioned competitive sourcing. 
Understanding that that is not designed to take the place of 
rangers and interpreters and professionals, but rather to do 
some of the maintenance work, some of the cleaning work, some 
of those kinds of non-professional duties, do you not think it 
makes sense to provide some opportunities to have a little 
competition and see if there are not other ways to do things?
    Mr. Arnberger. The National Park Service has had a long 
history of success in contracting. We have long contracted lots 
of our science in different ways with universities. We have 
contracted with concessionaires who provide certain visitor 
services.
    Let me best answer your question with a fact--and you know 
this because of your familiarity with the Service and with 
Yellowstone--that up to 30 percent sometimes of an individual's 
job can be in other duties, on a variety of duties.
    So one day I am sitting in my office there at Grand Canyon, 
and the fire alarm bell rings. And that was normal. And I 
thought I would let my staff handle it. Come to find out, it 
was one of our historic structures that was on fire. I roll to 
it in order to give what a senior manager can give, which is 
not much but standing there----
    Senator Thomas. Sure.
    Mr. Arnberger [continuing]. And being of some help. The 
person that was on the truck running the pump was my 
information technology chief. The person that was holding the 
hose and the handle of the hose going in the front door was the 
chief of interpretation on the South Rim, a district. He was 
followed by a maintenance man that was going in, and all had 
been trained. And the incident commander on the incident was a 
park ranger.
    And when I stood there and I watched what was going on, all 
of those people had to dedicate time and energies to stay 
qualified so that they did not kill themselves in trying to 
save these assets.
    That story sometimes gets lost in the discussion about 
outsourcing and competition. And I think that in that 
particular discussion, sometimes we focus too much on 
efficiency and less on value and benefit. And certainly that is 
a case where value and benefit was returned by having all of 
those multi-disciplines there.
    Senator Thomas. Sure. Yes. I do not think there is any 
question. I just, as a matter of fact, yesterday had a forest 
service employee in who was pointing out that he does this, and 
then where there is a fire, he switches over and does that.
    Mr. Arnberger. That is right.
    Senator Thomas. But we are not talking about that kind of 
thing. We are talking about such things as delivery of goods, 
you know. At any rate, you mentioned this commission, the 
commission--or who----
    Mr. Arnberger. I mentioned the commission, yes.
    Senator Thomas. Just generally, how would you see that 
structured? How would it be composed? Who would it be and so 
on?
    Mr. Arnberger. I see it structured by a non-partisan 
national stature group, perhaps several former presidents or 
whomever that, in fact, could take an unbiased and non-partisan 
look at where the national parks fit into the 21st century and 
how it fits in the overall context of our--managing our 
environment, not with just public lands, but how, in fact, we 
manage these most special places and to look at that and look 
at it in the light of the future. And then also support--delve 
into and separate fact from fancy about: What are the true 
needs in personnel?
    Senator Thomas. Yes.
    Mr. Arnberger. What are the true needs in terms of funding, 
especially in the context of moving ahead?
    Senator Thomas. Yes.
    Mr. Arnberger. And we have had several wonderful examples 
of this country stepping forward to do such things like that, 
such as the CCC and such as the Mission 66 project that, in 
fact, took us to another level.
    And we believe that there is--it is time to do that. I have 
a slight difference with the director on that. The advisory 
board is a wonderful board. It has served its function and it 
serves its function. But the advisory board--I think it was 
2003 or 2001, somewhere right in there--came out with a truly 
visionary plan.
    Senator Thomas. Yes.
    Mr. Arnberger. It was basically parks for the 21st century. 
That plan sits on a shelf right now.
    Senator Thomas. Yes. I tend to agree with you. And part of 
it, as I mentioned to someone else, is this idea of where do we 
go in the future and what is the criteria for additional parks 
as opposed to State parks and opposed to local parks and so on, 
because everything that we want to preserve is not going to be 
in the scope of the national park, I do not believe.
    Mr. Arnberger. That is right.
    Senator Thomas. Finally, Mr. Werst, have you run across--I 
think I heard this from several--because of the COLA on wages, 
they have had to leave some vacancies in the staff in order to 
make up that? Have you had that experience?
    Mr. Werst. Yes, I have. Throughout my entire career, going 
back to 1988 when I started as a seasonal ranger at Gettysburg 
and that was--that first year as a seasonal, I started to hear 
stories of how many staff we had at one time and just a 
constant eating away of the money available just for paying 
salaries, just started to get fewer and fewer people as a 
result. And it has just continued on up until the present day.
    Senator Thomas. Yes. Well, it is part of the problem.
    Well, gentlemen, we thank you for being here, thank you for 
what you do. And all of us are dedicated to making sure that 
parks succeed in the future. And I hope we can work with you on 
that, so thank you very much. We appreciate it.
    [Whereupon, at 3:56 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                        Department of the Interior,
           Office of Legislative and Congressional Affairs,
                                     Washington, DC, June 21, 2005.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: Enclosed are responses to the follow-up 
questions from the oversight hearing on the National Park Service's 
funding needs for administration and management of the National Park 
System held by the Subcommittee on National Parks on May 10, 2005. 
These responses have been prepared by the National Park Service.
    Thank you for giving us the opportunity to respond to you on these 
matters.
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel.
[Enclosure.]
                     Questions From Senator Thomas
    Question 1. What percentage of the National Park Service budget is 
devoted to administration such as the Washington and Regional Offices?
    Answer. About 9 percent of the total National Park Service (NPS) 
operations budget about $150 million out of $1.8 billion--is spent on 
the Washington office and the seven regional offices. Much of the work 
done in these offices is of direct benefit to the parks, and in fact 
many regional office staff spend large portions of their time working 
in parks. Responsibilities that are handled in Washington and the 
regional offices consist largely of administrative work, such as 
payroll and benefits, which is more cost-effective to conduct centrally 
than in individual parks.
    Question 2. How much has the National Park Service spent on travel 
each year during the past 5 years? How much of that was used for travel 
by personnel in the Washington DC and Regional offices? How much was 
spent on overseas travel and travel to foreign countries?
    Answer. Total NPS travel costs were as follows:

 
                        [In millions of dollars]
------------------------------------------------------------------------
             Fiscal Year                2000   2001   2002   2003   2004
------------------------------------------------------------------------
NPS Travel Costs.....................  42.6   45.5   51.5   44.2   36.4
------------------------------------------------------------------------

    Travel costs of Washington, DC and Regional office personnel were 
as follows:

 
                        [In millions of dollars]
------------------------------------------------------------------------
             Fiscal Year                2000   2001   2002   2003   2004
------------------------------------------------------------------------
WASO.................................  10.9   11.4   14.2   13.6   11.3
Regions..............................  11.3   11.8   13.4   12.1    9.4
------------------------------------------------------------------------

    International travel costs for NPS employees were as follows:

 
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
              Fiscal Year                         2000               2001        2002        2003        2004
----------------------------------------------------------------------------------------------------------------
Int. Travel...........................  n/a.....................   641,000     652,000     330,000     119,000
----------------------------------------------------------------------------------------------------------------
Note: Figures for FY01 and FY02 provided by GAO

    Total NPS travel costs were reduced by 29 percent from FY 2002 to 
FY 2004. International travel costs for NPS personnel were reduced by 
82 percent from FY 2002 to FY 2004.
    Question 3. I have heard that some park units have had to lapse 
positions, eliminate temporary and seasonal employees in order to find 
sufficient funds to give full time employees authorized pay increases 
and keep up with increasing utilities costs.

          A. Is this true?
          B. Why did it occur?
          C. Which parks have done this during your tenure as Director?
          D. How many lapsed positions are there currently?
          E. Was the White House aware of and did they approve of this 
        approach to allocating the full complement of an authorized pay 
        increase?

    Answers.

    A. Yes.
    B. Management frequently requires trade-offs between the number of 
permanent, seasonal, and temporary employees and decisions on how and 
when to fill vacant positions and meet other needs. Short-term lapses 
in filling positions are a normal part of managing any organization, 
since replacements are rarely found immediately once a position becomes 
vacant. However, long-term lapsing of permanent positions, as well as 
reductions in the number of temporary and seasonal employees also has 
occurred, largely because of the need to absorb pay and pay-related 
benefit costs. Congress has enacted a higher percentage pay increase 
than the Administration budget proposed every year for the past four 
years. In the past two years, the differences between budgeted and 
enacted pay increases have been 2.0 percentage points or more.
    In addition, in many parks, long-term lapses of some positions have 
occurred as a result of the need to fill other types of positions. A 
park manager may have had to lapse interpretive ranger positions, for 
example, to help pay for additional law enforcement positions. NPS has 
developed a core operations analysis process that seeks to determine 
the right mix of permanent, seasonal, and temporary employees that is 
efficient, sustainable, and covers all of the key functions.
    C. Nearly all parks in the System have had to lapse positions.
    D. The total number of lapsed positions changes daily in the System 
as positions are filled. There is no readily available way to determine 
on a System-wide basis which vacant positions we are actively trying to 
fill and which ones we do not intend to fill due to budgetary or other 
concerns.
    E. The Administration is aware that agencies face difficult 
budgetary decisions when Congress enacts a larger pay increase than the 
rate budgeted for in the President's budget, and that lapsing positions 
is a way of compensating for a higher mandated pay increase. Because 
pay costs account for such a large proportion of a park's operating 
expenses, lapsing positions is often the only short-term option a park 
manager has available to respond to higher mandated pay increases.
    Question 4. The Washington Post reported in yesterday's paper that 
the cultural resources portion of the National Park Service was 
undergoing a reorganization. The Post used the term ``massacre'' to 
refer to the changes.

          A. What changes are you making in the cultural resources 
        section of your organization and why?
          B. Why is Carol Shull, the Keeper of the Register for more 
        than a decade and a National Park Service employee for over 30 
        years, being relieved of responsibility for the National 
        Register program?
          C. How were people directly affected by the changes notified 
        of the impending changes? Were they given options for 
        retirement or other career opportunities?
          D. What makes the new Keeper of the Register better qualified 
        than the individual being replaced?

    Answers.

    A. The NPS is proposing to restructure the cultural resource 
programs in Washington, DC to establish a management arrangement that 
will promote cooperation and efficiencies among related programs and 
focus priorities on the core mission of the NPS. The approximately 150 
employees serving under the Associate Director for Cultural Resources 
and reporting directly to one assistant director will be grouped by 
related programs under three assistant associate directors: one for 
park cultural resources programs, another for historical documentation 
programs, and a third for heritage preservation assistance programs. 
Each of the assistant associate directors would be senior staff members 
who are emphasizing greater cooperation and efficiencies among related 
programs. This would be a more practicable and productive management 
arrangement than the current one.
    In addition, the restructuring highlights the importance of the 
National Register of Historic Places within NPS and the Department of 
the Interior. By appointing the Associate Director of Cultural 
Resources to serve as Keeper of the National Register of Historic 
Places, the designation of Keeper will be returned to the highest level 
within the NPS Associate Director structure, where it was from the 
early 1980's to 1994. The elevation of the Keeper reflects the crucial 
role that the National Register has in nearly all of the NPS cultural 
resources programs.
    B. Carol Shull will be reassigned to the position of Chief, 
Heritage Education Services, because of the importance of enhancing the 
American public's understanding of the importance of our cultural 
heritage. Ms. Shull has already established an important series of 
lesson plans for grades K-12 and travel itineraries using National 
Register properties. The proposed reorganization will utilize Ms. 
Shull's leadership and expertise to develop and implement similar 
heritage education programs in other cultural resource programs.
    C. The people most directly affected were notified of the proposed 
new organization an hour before its formal announcement. The 
appropriate union officials were also notified in advance, as required 
by statute, regulation, and contract. It is up to each employee to 
decide whether or not to retire. Each affected employee will be 
assigned to a new position, at the same pay, that is appropriate to his 
or her professional background.
    D. The new Keeper of the National Register, Dr. Janet Snyder 
Matthews, has 30 years of experience in preparing National Register 
nominations and National Register compliance documentation for work 
associated with Section 106 of the National Historic Preservation Act. 
She has chaired the State of Florida's National Register Review board 
and served as State Historic Preservation Officer of Florida, where she 
oversaw the state's National Register program and compliance review 
program. These state positions provide substantive experience for 
understanding the National Register process from the grassroots 
nominations to State review to NPS submissions. Dr. Matthews also 
chaired the National Historic Landmarks Committee of the National Park 
System Advisory Board prior to her competing for and being hired for 
the career position of Associate Director for Cultural Resources of the 
National Park Service.
    The National Register of Historic Places defines the benchmark for 
eligibility for Federal and State preservation grants and Federal 
historic preservation tax incentives and provides consideration for 
Federal Government actions that may affect resources. Raising the 
Keeper title to the highest possible level within the Associate 
Director organization reflects this important reality.
    Question 5. The position of law enforcement ranger (GS-0025) 
qualifies individuals for retirement after 20 years of service. Some 
individuals that performed law enforcement ranger duties have been 
denied full retirement benefits. The code that qualifies these 
retirement benefits is 5 USC 8336(c), commonly referred to as 6(c) 
retirement benefits. Interpretation of eligibility is determined by the 
Firefighter and Law Enforcement Retirement Team (FLERT). It has come to 
our attention that there are many concerns as to how these retirement 
rulings are being made.

          A. How many people have filed a request for 20-year 
        retirement under 6(c) with FLERT each year since its creation 
        in 1997?
          B. How many of these requests have been denied each year 
        since 1997?
          C. What would be the cost in retirement pay and benefits over 
        the next 20 years to cover those denied claims?
          D. What is the current backlog of claims awaiting a ruling by 
        FLERT?
          E. What is the current status of benchmark position 
        descriptions regarding the Law Enforcement Ranger, GS-0025 
        series and interpretation of this series as primary law 
        enforcement duties as reviewed by FLERT?

    Answers.

    A. We do not know how many NPS law enforcement rangers have filed 
requests for 20-year retirement under 6(c). The FLERT office is only 
able to provide information on the number of claims reviewed in FY 2004 
and FY 2005 at this time. We do know that about 1,200 requests for 20-
year retirement were filed prior to 1997.
    B. In FY 2004 and FY 2005, out of 316 claims reviewed, 99 were 
fully denied, and 121 were partly denied, and 96 were approved.
    C. Without knowing the number of people whose claims have been 
denied since 1997, we cannot calculate the cost of covering denied 
claims.
    D. As of March 18, 2005, there were 135 claims pending.
    E. FLERT has told NPS that they do not think NPS law enforcement 
rangers (025 series) fit the definition of law enforcement personnel. 
NPS is in discussion with FLERT about this matter.
    Question 6. How much have your costs increased since 2001 as a 
result of homeland security and have you seen an equivalent budget 
increase to support the effort?
    Answer. Since the attacks on September 11, 2001, NPS has received 
over $120 million in extra appropriations directly related to homeland 
security costs. This money has gone toward security at border and icon 
parks, training and recruitment, non-recurring construction projects, 
and emergency funds to respond to the actual attacks. NPS also used 
concessions fees to cover nearly $12 million in extra homeland security 
costs at the Statue of Liberty. NPS has also absorbed over $9 million 
in costs that allowed the Service to react to Code Orange threat 
levels, mostly in 2003.
    Question 7. What is the fixed costs percentage of park operations 
service wide?
    Answer. A recent analysis of NPS accounting data showed that 85 
percent of total obligations in park operating accounts were for pay, 
personnel benefits, and other fixed costs in 2004.
    Question 8. You have been director of the NPS for four years and 
have done an admirable job in that position.

          A. What have been your priorities for the past 4 years and 
        what progress have you made toward accomplishing them?
          B. Has the budget allowed you to implement any special 
        projects or programs in support of your priorities?
          C. What are your priorities for the next 4 years?

    Answers.

    A. My priorities for the past four years have been: improving the 
conditions of facilities in the National Park System, sustaining park 
operations, continuing enhancement of natural resource protection, and 
improving management of the National Park Service. We have made 
substantial progress in each of these areas.

  <bullet> On facilities, if Congress approves the levels of funding 
        requested in the Administration's FY 2006 request, we will have 
        fulfilled the President's commitment to spend $4.9 billion on 
        the deferred maintenance backlog over five years. Since FY 
        2002, we have undertaken over 4,000 maintenance projects. The 
        comprehensive asset management strategy we have developed has 
        enabled us, for the first time in NPS history, to inventory our 
        assets and measure the condition of our facilities. We 
        anticipate having comprehensive condition assessments for all 
        388 park units by the end of FY 2006, which will enable us to 
        target funds to our highest priority needs. We are targeting 
        funding to cyclic maintenance to ensure that recent 
        improvements will be adequately maintained.
  <bullet> For park operations, NPS received the largest annual 
        increase in its history for FY 2005--a net increase of $64 
        million. The Administration's request for FY 2006 builds on 
        that budget with a proposed increase of $50.5 million for park 
        operations, a figure that fully covers salaries, benefits, and 
        fixed costs.
  <bullet> For natural resource enhancement, the Natural Resource 
        Challenge continues to build a scientific base of knowledge 
        about park resources. Funding proposed for FY 2006 will allow 
        us to complete the monitoring of park vital signs and water 
        quality in all 32 multi-park networks.
  <bullet> In the area of management reforms, we have made progress on 
        several fronts. In our concessions program, we have made the 
        program much more business-like, and we have begun to 
        professionalize our workforce. By the end of this year, we 
        expect that we will have awarded 447 of the almost 600 NPS 
        concession contracts over a four year period. Other business-
        like improvements we have made include the development of a 
        park scorecard to aid in the evaluation of base budget 
        increases for park units, a core operations analysis to focus 
        resources toward functions that are critical to the NPS mission 
        more effectively and efficiently, and a partnership project 
        review process to ensure that only partnership construction 
        projects that are of the highest quality and are determined to 
        be feasible and sustainable are recommended to Congress for 
        approval.

    B. Yes, the funding that NPS has received from Congress, largely 
reflecting the Administration's requests, has enabled us to make 
considerable progress on all of the goals discussed above.
    C. My five stated goals as Director of NPS, what we refer to as 
``Doing Business in the 21st Century,'' are the following:

          Management Excellence: the NPS promotes management excellence 
        and strives to be a model of government accountability. The 
        improvements to concessions, the development of park 
        scorecards, the analysis of core operations, and the review of 
        partnership construction projects mentioned above are examples 
        of ways in which we are promoting management excellence.
          Outdoor Recreation: the NPS has a critical role in helping 
        provide appropriate outdoor recreation, playing an important 
        part in the seamless network of parks and the physical and 
        mental health of all Americans. We are developing an effective 
        strategy that includes a public education campaign to integrate 
        park units, managed areas, and outdoor recreation programs with 
        the President's Healthier U.S. Initiative, and have established 
        a subcommittee on health and fitness of the NPS Advisory Board.
          Conservation: we are working to select and implement major 
        restoration projects that demonstrate good science and 
        practical resources. The progress we have made in inventorying 
        and conserving natural resources in our parks through the 
        Natural Resource Challenge is an integral part of this work.
          Sustainability: the NPS is actively pursuing sustainability 
        of its facilities, operations, business practices and resources 
        through conservation, sustainable design, fiscal 
        responsibility, information technology, active partnerships, 
        philanthropic support and positive relationships with Congress. 
        Our efforts to increase civic engagement to develop a seamless 
        network of parks are part of our pursuit of sustainability.
          21st century Relevancy: to continue to be relevant to 
        contemporary America, programs and initiatives will emphasize 
        the importance of understanding the needs of all cultures and 
        making parks relevant to young people. One example of our 
        efforts in this area is promotion of the Junior Ranger program.

    Question 9. What progress has the administration made toward 
reducing the maintenance backlog in the national park system?
    Answer. NPS has made significant progress in undertaking specific 
maintenance projects throughout the National Park System as well as in 
establishing and implementing a new management framework that will 
guide the Service's approach to asset management. If enacted, the 
President's FY 2006 budget and surface transportation reauthorization 
proposal would fulfill the pledge to devote $4.9 billion over five 
years towards the NPS maintenance backlog.
    With the funds appropriated and collected thus far since FY 2002, 
NPS has undertaken over 4,000 projects ranging from road repairs, to 
historic building stabilization, to restroom rehabilitation. In 
addition, NPS has completed the first-ever systematic inventory of its 
assets and conducted initial condition assessments at all parks. 
Comprehensive condition assessments are scheduled to be completed by 
the end of FY 2006.
    Question 10. How many competitive sourcing studies have been 
conducted, in which disciplinary areas, and what were the findings?
    Answer. Two competitive sourcing studies have been conducted. In 
2003, NPS conducted a study involving archeology work, covering 43 FTE, 
at the Southeast Archeological Center in Florida. The government bid 
prevailed. The process had a one-time cost of $129,000 with projected 
savings over five years of $4.2 million. In 2004, NPS conducted a study 
involving maintenance work, covering 74 FTE, at Natchez Trace Parkway. 
The government bid prevailed there as well. The process had a one-time 
cost of $192,000 and is projected to save $1.105 million over five 
years.
    Question 11. When functions of the Heritage Conversation and 
Recreation Service were ``consolidated'' by secretarial order in 1981 
several policies and programs, including Land and Water Conservation 
Fund (LWCF) state assistance, were assigned to the National Park 
Service. It soon became widely known that many senior NPS staff viewed 
the LWCF state program as competition for appropriations that might 
otherwise go to the national park system, or other federal land 
programs. In fact, two of the stated reasons for the President's 
proposal to terminate and zero fund the LWCF partnership: we don't have 
enough money, and it is no longer important to the department's 
mission, appear to reinforce those perceptions. The budget document 
further observes that local and state public recreation and park system 
are sufficiently funded to take care of their own needs, despite the 
fact LWCF is not a means tested program, but rather one of reinvestment 
of Outer Continental Shelf Fund receipts. Even the Office of Management 
and Budget determination of no demonstrable program values is 
questioned by informed groups and individuals close to the program.

          A. Executives from the Department of the Interior and 
        National Park Service often speak of the value to the American 
        people of partnerships. Why is there little or no mention of 
        LWCF state and local investments that collectively meet 
        national recreation and park goals?
          B. Would you document for the subcommittee your assertion 
        that state and local governments are sufficiently funded to 
        meet present and presumably future recreation resource needs?

    Answers.

    A. The LWCF State grant program has a good record of contributing 
to national recreation and park goals: nearly 40,000 grants, valued at 
approximately $3.6 billion, have been awarded since the inception of 
the program. The elimination of grant funding in the proposed budget is 
due partly to the determination that the mechanism for actually 
measuring performance has been inadequate, as OMB's 2003 PART review 
revealed. We are working hard to remedy this problem so that we can 
fully integrate the LWCF State grants program with recreation and park 
performance goals in the future.
    B. The Fiscal Year 2006 Interior Budget in Brief (February, 2005), 
page DO-11, states that ``The LWCF State grants support State and local 
parks that have alternate sources of funding through State revenues and 
bonds.'' That statement does not address sufficiency of State funding; 
it points to other available sources of funding for the purposes of the 
program--including bonds, which are a financing mechanism that is 
available to States but not the Federal government.
    Question 12. The budget proposes to terminate funds for state LWCF 
assistance. Would you elaborate on this? Does this suggest that the 
President or the Secretary will recommend legislation to terminate the 
program?
    Answer. LWCF State grant funds were not included in the FY 2006 
budget request for two principal reasons: One was that the 
Administration is committed to the President's goal of reducing the 
Federal budget deficit in half in five years; this resulted in budget 
decisions aimed at meeting the most mission-critical elements of the 
National Park Service. The other was that in 2003, as mentioned above, 
the LWCF State grant program went through a PART review by the Office 
of Management and Budget (OMB) as they evaluated the effectiveness of 
all Federal programs. OMB concluded that the program could not 
adequately measure performance or demonstrate results.
    The decision not to fund LWCF State grants in 2006 is not 
unprecedented. This program was not funded in fiscal years 1996 through 
1999. It was also not funded in 1982 and was funded at essentially 
nominal levels for several years later in the 1980's.
    The Administration does not plan to recommend legislation to 
terminate the program. The National Park Service will continue to 
process new grants from prior-year funding and administer and monitor 
the projects through completion, which often take State and local 
sponsors three to five years. NPS staff will also continue to 
administer the provision of the LWCF Act that requires that an assisted 
site remain in public outdoor recreation use in perpetuity unless the 
Secretary of the Interior gives approval for converting the site to 
another use. In addition, the program will continue to work with all of 
its partners to enhance the use of performance information in managing 
the program.
                    Questions From Senator Bingaman
                       park service restructuring
    Question 1. The proposed employee restructuring in the cultural 
resources division has drawn a lot of attention recently. As part of 
the restructuring, your Associate Director for Cultural Resources 
disallowed ``flex time'' schedules for employees at the GS-14 and GS-15 
levels in the cultural resources division. Are you planning a similar 
restriction on flex time employment for other Park Service employees 
outside of that division? If not, please explain your rationale why 
employees in one group should be treated differently from other 
employees at the same grade level within the same agency. Also, will 
SES and political appointees be subject to the same work time 
restrictions?
    Answer. The disallowance of alternative work schedules for GS-14 
and GS-15 employees by the Associate Director for Cultural Resources 
applies only to employees who are under her management those who work 
in cultural resources programs in Washington, D.C. Each manager is 
responsible for determining an effective and efficient schedule to 
perform the work assigned; the Associate Director for Cultural 
Resources feels that she needs her key program management officials, 
all of whom but two are supervisors, to be present on a regular 
schedule. Other staff remain free to work under an alternative work 
schedule with the approval of their supervisor. The Associate Director 
for Cultural Resources is the only SES employee in cultural resources 
and there are no political appointees in this program area. The 
Associate Director herself works a regular schedule.
                          management policies
    Question 2. During your confirmation hearing in 2001 I asked about 
your support for the NPS Management Policies, particularly Management 
Policy 1.4.3, which states in part: ``Congress, recognizing that 
enjoyment by future generations of the national parks can be ensured 
only if the superb quality of park resources is left unimpaired, has 
provided that when there is a conflict between conserving resources and 
values and providing for the enjoyment of them, conservation is to be 
predominant.'' You answered, ``I am advised that courts have 
consistently interpreted the Organic Act this way. Therefore, I would 
agree that the resource is always the primary focus.'' I would like to 
follow up on your answer.

    A. In September, 2003 you wrote to the Chairman of the House of 
Representatives' Subcommittee on National Parks that you had begun ``a 
systematic review of the NPS Management Policies of 2001.'' What is the 
status of that review? Are the Management Policies being revised?
    B. In the same letter, in response to a question asking you to 
provide the ``legal basis for concluding that the Organic Act requires 
that `when there is a conflict between conserving resources and values 
and providing for the enjoyment of them, conservation is to be 
predominant'' you replied ``we believe this statement is an inaccurate 
interpretation of the law . . . The Act states that enjoyment by the 
public should be achieved consistent with leaving resources unimpaired 
for future generations. This does not mean that the mere presence of 
conflict constitutes impairment or places conservation as preeminent 
over enjoyment.'' Your answer to me at your confirmation hearing seems 
at odds with your later answer to Congressman Radanovich. How do you 
reconcile both of your responses? Has your position changed from your 
testimony in 2001? Do you still agree ``that the resource is always the 
primary focus'' and can you assure me that you are not seeking to 
change Management Policy 1.4.3?

    Answers.

    A. The NPS Management Policies issued in 2001 are under review in 
the Office of the Assistant Secretary for Fish and Wildlife and Parks. 
Until that review is concluded, we will not make any decisions about 
whether or not we plan to seek any changes in the Management Policies.
    B. I do not interpret the responses you referred to as being 
inconsistent. In my 2001 confirmation hearings, I gave a response that 
indicated my understanding of how the courts had interpreted the 
Organic Act with respect to giving priority to conserving resources. In 
the 2003 letter to the Chairman of the House Subcommittee on National 
Parks, my response took issue with that interpretation. As noted above, 
until the Assistant Secretary's review is concluded, we will not make 
any decisions about whether or not we plan to seek any changes in any 
of the Management Policies.
                          maintenance backlog
    Question 3. Your testimony referred to the comprehensive asset 
management strategy that the Park Service has developed to inventory 
and measure the condition of its facilities. I have yet to hear any 
National Park Service official provide a clear answer as to the 
progress being made in reducing its backlog. You have stated many times 
that the FY 2006 budget meets the President's goal of spending $4.9 
billion to address the deferred maintenance backlog. Aside from the 
fact that the President's original goal, as stated in the FY 2002 
Interior Budget in Brief (p. DH-20) was to eliminate the maintenance 
backlog over five years, not simply address it, and that the majority 
of the funds provided reflected a continuation of previous funding 
levels, can you tell me specifically what the current estimate is of 
the deferred maintenance backlog? I understand that the exact 
maintenance backlog will be constantly changing as new projects are 
added and others completed, but if you don't have a specific estimate, 
how can you measure your progress in any meaningful way?
    Answer. Trying to establish a set dollar amount for the maintenance 
backlog and measuring progress in terms of dollars spent is not an 
effective way to measure or evaluate performance accomplishments 
relative to NPS assets. It is far more effective to measure performance 
over time, which NPS can now do through the use of the Facility 
Condition Index. In addition, it is important for the agency to set 
priorities within its asset inventory, so that limited funds can be 
applied to the most significant resources within parks. It is not 
practical to assume that every asset, regardless of its priority, will 
be brought to or kept at to the same level of condition. NPS has 
established a framework for reducing the backlog while also managing 
the asset inventory and making smart decisions so that future growth in 
deferred maintenance is avoided.
                       homeland security funding
    Question 4. Your testimony noted that one of the major challenges 
that the National Park Service has faced in recent years has been the 
need for more security, and that after the September 11 attacks, the 
Park Service has focused more law enforcement and security resources on 
icon parks and other high risk areas. I would like to better understand 
the effect homeland security costs have on your budget. I have been 
told that security-related operating costs for the Park Service now 
total approximately $40 million in annual recurring costs, and that the 
Park Service does not receive reimbursement from the Department of 
Homeland Security for those costs. Is that correct?
    Answer. Annual costs are about $43 million a year and those costs 
are not reimbursed by the Department of Homeland Security. However, NPS 
has received increased operating funding to pay for increased security 
costs. Since 2001, the overall operational base level of funding for 
NPS law enforcement and security has increased about 25 percent.
                    land and water conservation fund
    Question 5. The FY 2006 budget proposes no funding for the Land and 
Water Conservation Fund's State grant program. In the 2004 annual 
report on the State LWCF program prepared by the National Park Service, 
you are quoted as saying that ``the 40th anniversary [of the LWCF] is 
an opportunity for us to reflect the program's enduring and ubiquitous 
legacy. Parks and recreation in America depend on LWCF. Without it, 
many of our nation's parks would simply not exist.'' According to the 
FY 2006 Interior Budget in Brief an OMB PART review in 2003 ``found the 
current program could not adequately measure performance or demonstrate 
results.'' Given your experience as a former State parks director, do 
you agree with the OMB assessment that the LWCF State program cannot 
demonstrate results? If so, how do you reconcile that with your praise 
for the program in the 2004 annual report?
    Answer. The 2003 PART review indicated that the LWCF State grants 
program could not adequately measure performance. This does not mean 
that the program itself performed poorly, but rather that we were 
unable to adequately measure performance at that time. We still believe 
that the LWCF State grants program is a good one and has many positive 
benefits for natural recreation. However, we cannot demonstrate this 
with more than qualitative and anecdotal evidence. Therefore, the 
challenge before us now is to work with our State and local partners to 
obtain good data and performance measures for enhanced management of 
the program in the future. We are working toward this goal with OMB and 
are making excellent progress.
                    Questions From Senator Landrieu
    Quetion 1. Can you please address the recent restructuring of the 
Cultural Resources division at National Park Service? The dramatic 
changes have been caused great concern. Can you please outline the 
changes, why they were made, and what potential negative affects they 
may have on the National Park Service?
    Answer. The proposed restructuring of the cultural resources 
programs in Washington, D.C. is designed to promote cooperation and 
efficiencies among related programs, and to enable us to focus on our 
core mission and enhance the visibility and effectiveness of historic 
preservation for the nation. It highlights the importance of the 
National Register for Historic Places through the appointment of the 
Associate Director of Cultural Resources to serve as Keeper of the 
National Register.
    The proposed structure groups related programs and functions under 
three assistant associate directors: one for park cultural resources 
programs, a second for historical documentation programs, and a third 
for heritage preservation assistance programs. These changes are based 
on a year-long review of the legislation and other documents related to 
cultural resources, interviews with clients and customers, and comments 
and suggestions from managers and staff. In the overwhelming number of 
cases, employees' work and duties are unchanged.
    A handful of employees will be assigned to new positions 
appropriate to their professional background. For example, Carol Shull, 
the Keeper of the National Register, will be reassigned to become 
Chief, Heritage Education Services, in recognition of the importance of 
the heritage education program that she established to enhance the 
American public's understanding of the importance of our cultural 
heritage and the need to preserve our Nation's history. John Robbins 
will be the Chief of the Historic American Buildings Survey (he is 
currently manager of the National Center for Cultural Resources, a 
position proposed for abolishment.) A separate Historic Preservation 
Grants division will be established because of the high visibility and 
critical nature of our many preservation grant programs that administer 
over $70 million in annually awarded grants.
    National parks will benefit from the restructuring because the 
cultural resource programs that affect parks will be grouped under one 
assistant associate director. The National Conference of State Historic 
Preservation Officers and the National Trust for Historic Preservation, 
our two closest partners, have endorsed the changes involved with 
establishing the other two assistant associate positions. We also have 
heard from dozens of current partners in the governmental and private 
sectors regarding the positive nature of the proposed changes.
    Question 2. Why did NPS again zero out funding for NCPTT, the 
National Center for Preservation Technology and Training program 
operated in conjunction with Northwestern State University in Louisiana 
after several officials have made supportive comments indicating its 
importance to the National Park Service, as well as private and public 
preservation organizations?
    Answer. The budget proposal for NCPTT is not to eliminate the 
center but to eliminate direct Federal funding for the center. NPS 
recognizes that the NCPTT has provided a valuable service. However, the 
NCPTT could become self sufficient by charging user fees to the 
entities that directly benefit from the services. In these fiscally 
tight times, the Administration is seeking to ensure that NPS resources 
are aimed at the programs that most directly serve the parks. In the 
past, none of these grants have been used to directly benefit NPS park 
units. The NPS will continue to rely on the Historic Preservation 
Center in Frederick, Maryland, for training park staff on preservation 
work on historic buildings, which does provide direct assistance to 
parks.
    Question 3. Why did the National Park Service budget request 
eliminate all funding for heritage areas after the NPS Advisory Board 
concluded ``Heritage areas add new dimension to the National Park 
Service providing an opportunity to conserve nationally important 
living landscapes and cultures . . . the NPS has an important role as 
an expert, convener and catalyst. The NPS can also provide credibility, 
planning and interpretation expertise, and organizational capacity . . 
.''?
    Answer. We recognize that the Congressional heritage area 
designation is an effective tool to bring together local communities 
interests for the preservation of local heritage resources. With 
designation, local communities are able to coalesce support for 
important regional needs that conserve cultural and natural resources, 
improve the quality of life, and help to develop sustainable self-
supporting economies. We believe, however, that Congress should enact 
national heritage area legislation that would provide a clear process 
and criteria by which to assess the national significance and other 
relevant characteristics of proposed heritage areas.
    The FY 2006 budget request does not eliminate but rather reduces 
funding for the national heritage areas to $4.9 million for commissions 
and grants. This reflects an emphasis on encouraging them to become 
self-sufficient. However, the FY 2006 request expands opportunities and 
resources that the heritage area partners can competitively apply for, 
including $15 million for Save America's Treasures, $38.7 million for 
historic preservation grants to States and Tribes, and $12.5 million 
through the new Preserve America grants programs.

                                ------                                

           The Coalition of National Park Service Retirees,
                                         Tucson, AZ, June 14, 2005.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Thomas: I am in receipt of your letter of May 13, 
2005, with further questions regarding my testimony before the 
Subcommittee on National Parks of the Senate Committee on Energy and 
Natural Resources on May 10, 2005. I apologize for the delay in 
replying but I did not receive the letter until June 2, 2005. I will 
reply to the six questions in the order in which you presented them.
    Question 1. Based on your experience as a former Regional Director 
of the National Park Service, what do you consider the highest priority 
for the National Park Service at this time?
    Answer. I believe the highest priority is to immediately increase 
the annual recurring operational budget for the National Park Service 
by at least $600 million dollars to restore the Service's ability to 
manage the daily operations of our national park system. There is 
respectful recognition of some of the budget gains made over recent 
years but the needs have far outstripped the gains indicating the scope 
of the problems that must be addressed. This recurring budget increase 
will restore Service ranger protection and education programs, fill 
lapsed positions throughout the Service, provide facility managers with 
funds required to care for federal assets, and continue the recent 
programmatic gains in science and resources management. The budget 
hemorrhage must be halted, pragmatically based on the notion that 
``today's budget deficit is tomorrow's backlog''. The second highest 
priority is to stimulate and create a national dialog to explore and 
determine the future of our national park system. It is time to end the 
repetition of headlines about park deficits, deferred maintenance, and 
reduced visitor services. I believe that a non-partisan Centennial 
Commission on Parks should be established composed of the highest 
caliber national leaders dedicated to restoring the values of our 
national park system by evaluating the mission and roles of a national 
system of parks for the 21St century. The work of this Commission would 
create a bold, multi-year plan focused upon the future of our park 
system within the broader national and international context of 
environmental management.
    Question 2. What area of park operations and management is in 
greatest need of budget adjustment?
    Answer. I believe there are two critical operational areas that 
must be addressed quickly. The first is resource and visitor protection 
programs. The promise made to the people of the United States to 
protect resources and people in our parks is in jeopardy. The crisis is 
acute, as revealed in no less than six formal reports over the past six 
years. These reports have ranged from a Report to Congress, to an 
internal report by the Departmental Office of Inspector General, to 
reports by nationally accredited institutions such as the International 
Chiefs of Police and National Association of Professional 
Administrators. There is absolute unanimity in all the reports in 
characterizing the crisis that faces the National Park Service to 
assure resource protection, public safety and the welfare of our ranger 
force engaged in law enforcement, search and rescue, and emergency 
medicine. No new studies are required. What is required is a strategic 
plan to implement the studies already completed. Where required, 
effective budget strategies in collaboration with the Department of the 
Interior and Congress must be developed to achieve staffing and 
equipment solutions in balance with other important operational 
requirements in parks. The figures for personnel additions vary from 
615 new rangers (28% increase over existing) to 1295 new rangers 
identified by the NPS pursuant to requirements in Title 8 of P.L. 105-
391, the National Park System Omnibus Management Act of March 2000. As 
background for your consideration I attach, for the record, a draft 
White Paper titled, Our Heritage Protection: A Promise to the People, 
written for the consideration of the Service's National Leadership 
Council (9/6/02) to be considered as a potential strategy for engaging 
the issue at the national level.
    The second area requiring increased emphasis is Education and 
Interpretation. The core mission of the National Park Service has 
always included and been defined through protection of resources and 
providing visitor experience. Education is a required role of the 
agency in order to preserve resources and provide visitor enjoyment. 
Education as a component of the NPS mission is not new. The NPS must 
better connect stewardship education with resources research and 
science. Education can serve as the connection between the public who 
own the resources and those invested with the responsibility to manage 
them. The existing education and interpretation program in the NPS, 
while not in perfect health, is vibrantly alive at different, isolated 
parks across the System. These programs have inspired millions of 
people about the importance of parks to the global community. However, 
the program languishes. It is under-funded and under-lead. It is a 
program that suffers budgetary cuts the first. Connections to outside 
educational institutions are sporadic or not in place. Working with 
schools in curriculum development, innovative distance learning 
opportunities and site-based school opportunities must be a key focus 
of national park service educational programs in concert with improved 
conventional visitor use programs. Several NPS Regions were innovative 
in seeking new approaches but were consistently hampered by lack of 
funds and national leadership. One such approach, A Contract With The 
Future (3/02) is attached, for the record, as one example of the 
unrealized potentials of this program.
    Question 3. Does the National Park Service allocate sufficient 
funds for administrative functions such as travel and headquarters and 
regional duties?
    Answer. The regional offices and other headquarters offices suffer 
at least the same levels of operational needs as parks do. These 
offices have successfully transitioned into more effective ``support'' 
and ``oversight'' institutions where a collection of trained 
professionals can meet the technical needs of groupings of parks. It is 
often more efficient and effective to centrally locate a cadre of 
technical professionals to meet the wide range of needs from a variety 
of parks. Often, the effectiveness of these professionals to offer 
assistance to parks is compromised by the lack of staffing to meet the 
diversity of needs and by lack of travel money to get to the parks to 
assist them. There are frequent cases where a field superintendent must 
tackle an issue or develop a plan that exceeds the capacity of the park 
to engage. In requesting assistance from support offices their pleas 
for help frequently go unanswered because the support office does not 
have the capacity either--they are stretched too thin. These technical 
support offices sincerely attempt to assist but their capacity to do so 
is frequently compromised. Frequently, the only way a support office 
can provide assistance is to assess the field units of a percentage of 
their field budgets. It is common practice, and a necessary one, to 
assess all field units from both a Headquarters Office level and a 
Regional Office level, to develop the contingency funds necessary to 
assist the field units. Incidentally, the Department of the Interior 
makes the same kinds of assessments of the Bureaus in order to fund 
Departmental initiatives, some of which have merit and some don't.
    Question 4. I have heard that some park units have had to lapse 
positions, eliminate temporary and seasonal employees in order to find 
sufficient funds to give full time employees authorized pay increases 
and keep up with increasing utilities costs. Did this occur while you 
were a manager in the NPS? Is this a widely practiced management option 
to make ends meet?
    Answer. The answer to both of these questions is YES. This is a 
common management practice to meet the budget realities that park 
managers at all levels face on a daily basis. I would refer you to my 
testimony and the personal anecdote of a senior park manager that 
reflected upon this issue. That manager stated, ``year after year 
Congress authorizes mandatory pay increases to federal employees 
without fully funding them. In FY 04, we received a 4.1% pay increase 
with less than a 1% park budget increase. As managers, we groan when we 
see proposed salary increases because we know it will diminish our 
ability to fulfill our mission--and at the same time we are happy for 
our staffs who work so hard''. Further, the problem is exacerbated by 
the higher cost of benefits ``with the federal match of retirement 
accounts, overhead for employees has skyrocketed from about 11% to 
close to 50% in some cases and as Civil Service employees retire 
replaced by FERS employees the salary overhead for parks increase.'' 
Further, the Coalition of National Park Service Retirees released a 
report of a survey conducted in May 2004 of 12 representative parks 
across the nation. Relative to your question the following findings are 
important:

  <bullet> Eight of the 12 National Parks are operating with 2004 
        budgets that went down--not up.
  <bullet> All of the 12 national parks have 2004 employee levels that 
        are down--not up.
  <bullet> Six of the 12 national parks already have or will cut 
        visitor center hours or days.
  <bullet> All of the six historic parks reported further deterioration 
        of key facilities.
  <bullet> Nine of the 12 national parks reported circumstances that 
        will diminish in a material way the ability of visitors to 
        enjoy the national parks.
  <bullet> Some parks will see less visitor and resources protection 
        and reduced emergency response capability.

    This survey is found at www.npsretirees.org in a press release 
dated May 27, 2004. Specific anecdotes from individual park managers 
eloquently describe the severe budget restrictions they face and the 
necessary management decisions they must take to balance the budget.
    Question 5. In your testimony you referred to a survey of 12 parks. 
Was the survey conducted by mail, e-mail, or internet? How many 
individuals responded to the survey? What steps did you take to prevent 
the results from being skewed by having multiple responses from the 
same individual?
    Answer. Again, I would direct you to the website, 
www.npsretirees.org to a press release dated May 27, 2004, which listed 
the contacted parks and survey methodology. The Coalition went behind 
the scenes in May 2004 in an attempt to get the facts about two dozen 
representative national parks across America. Coalition researchers 
went directly to their colleagues still serving in the national parks 
and asked them to tell the ``real story'' about what is going on in 
terms of cutbacks in key services and personnel. The same questions 
were asked of all park managers. Many of those reporting acknowledged 
that the information was public or could be made available through FOIA 
request or under the authority of the NPS Director's Orders on civil 
engagement and public involvement. However, some of those who declined 
to participate cited fears of possible retribution. From its original 
focus on about two dozen parks, the Coalition ended up getting full 
reports back on 12 representative parks from across the nation. The 
survey, with common questions, was conducted by phone and through 
personal discussion. All two dozen park managers responded. However, 
some requested their responses not be used. The park manager was 
contacted only once by one Coalition researcher to avoid multiple 
responses from the same individual. There is no reason to believe 
conditions have measurably improved in FY 05. Before I presented my 
formal testimony to the Subcommittee I personally interviewed 2 
different park superintendents. As I stated in my oral testimony, these 
two superintendents reflected that 92% and 97% of their budgets were in 
fixed costs.
    Question 6. Your testimony refers to the promise of a National 
Parks Blue Ribbon Commission focused on determining the role of the NPS 
in the 21st Century. How would your organization assist in this panel 
were it to become reality? What are some of the visionary insights the 
Coalition of National Park Service Retirees can offer?
    Answer. The Coalition represents a valuable source group for this 
panel. Today, over 400 retirees have joined the Coalition in efforts to 
better protect our national park system. Many Coalition members were 
senior NPS leaders who received awards for stewardship of America's top 
natural and cultural resources. The Coalition ranks include 5 former 
directors and deputy directors of the National Park Service, 23 former 
regional directors or deputy regional directors, 25 former associate or 
assistant directors at the national or regional level, 53 former 
division chiefs at the national or regional level, and over 100 former 
park superintendents or assistant superintendents. Collectively, the 
Coalition represents over 12,000 years of cumulative experience in 
managing our nation's park system. Bringing this level of experience 
and commitment to the work of the commission would add significant 
value to the work carried out and to the recommendations the commission 
might make. Coalition members would seek to assist in any way that 
would contribute to the success of the commission's work. Our members 
can serve as staff to assist the work of the panel ``interpreting'' the 
culture of the NPS and the rich legislative framework that has been 
developed to create and protect parks. Our members are equipped to 
participate with national stature panelists in the work of the 
Commission. Our organization would seek to provide input and testimony 
before the commission on a wide range of topics. Our organization would 
place great value in helping to shape the commission's mission, goals 
and objectives.
    The fundamental principles of our national park system as 
``cumulative expressions of a single national heritage'' must be 
nationally invigorated by citizens, organizations, our politicians, and 
our government as a concerted national endeavor led and fed by 
enlightened leaders in all communities and in all segments of our 
society. It is time to restore the great idea to the prominence it has 
always enjoyed in our national community, insulated from the 
divisiveness of partisan politics and destructive political ideology 
not practiced in the public interest. It is time to invigorate a 
national dialog to explore the issue of governance of our national park 
system, identifying the problems that prevent long-term strategies and 
long-term sustainability of our parks and determine if we can ``find a 
better way'' to manage our natural and cultural legacy within the 
context of our national and international environmental efforts. 
Enlightened national leadership must create the circumstances to begin 
this dialog on behalf of the broadest public interest. We believe that 
endorsing and creating a ``Blue Ribbon Commission on Parks'' or a 
``Centennial Commission on Parks'' is timely given that the Centennial 
Anniversary of the National Park Service approaches in 2016. What 
better way to commemorate past successes than through a bold, 
responsive and innovative plan for the 21st century assuring our 
precious parks are passed on, unimpaired, to future generations?
    Models exist for such an effort. The Civilian Conservation Corps 
program of the 1930's and the Mission 66 Program from 1956--1966, well 
demonstrate the commitment and national capacity that can come to bear 
on the work of the commission. We also commend to your attention two 
insightful reports that attempted to gain the national attention the 
parks deserve. National Parks for the 21st century--the Vail Agenda, 
(1991) developed in response to the National Park Service's 75 
anniversary was a bold attempt to look forward and fashion a national 
system of parks for the future. Recently, the National Park System 
Advisory Board Report, Rethinking the National Parks for the 21st 
century, (2001), provided thoughtful guidance for the National Park 
Service in meeting the 21st century future.
    In all these efforts the Coalition of National Park Service 
Retirees stands ready to assist and participate in any meaningful way. 
Even in our retirements our commitment to this great idea remains 
unabated.
    Thank you for the opportunity to answer your questions and further 
elaborate on the testimony provided to you.
            Sincerely,
                                       Robert L. Arnberger,
[Enclosures.]
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

            OUR HERITAGE PROTECTION: A PROMISE TO THE PEOPLE
              white paper draft 9-6-02 by robert arnberger
    ``In support of the National Park Service mission, Law Enforcement 
serves the public interest to protect resources and people, prevent 
crime, conduct investigations, apprehend criminals, and serve the needs 
of the visitors.''
            Director Fran Mainella

    The National Leadership Council has renewed its commitment to the 
ranger profession to develop an effective and efficient law enforcement 
program that is well managed and adequate to fulfill the mission, 
vision, and values of the National Park Service and the Department of 
the Interior. The promise made to the people of the United States to 
protect resources and people in our parks is in jeopardy unless we 
begin to affirmatively respond to defined failures with a new future.
    The crisis is acute, as revealed in no less than six formal reports 
over the past four years. These reports ranged from a Report to 
Congress, to an internal report by the Departmental Office of Inspector 
General, to reports by nationally accredited institutions such as the 
International Chiefs of Police and the National Association of 
Professional Administrators. There is absolute unanimity in all the 
reports in characterizing the crisis that faces the National Park 
Service and it's programs necessary to assure resource protection, 
public safety and the welfare of our ranger force engaged in law 
enforcement Undeniably, there have been failures in seeking and 
defining a cohesive and responsive strategy to meet this crisis that 
has been well understood at the field operational level for at least a 
decade while being less than fully understood and embraced by National 
Park Service headquarters leadership over the same period of time. A 
new opportunity to craft a sustainable strategy that effectively 
engages this crisis stands before us. Lives depend upon it. 
Irreplaceable resources, which could be lost to future generations, 
rely upon it. The promise to the people must be honored through 
effective and coordinated action taken by all those who share in these 
fundamental responsibilities.
    Organizationally, the National Park Service is already making 
necessary decisions by creating a new senior leadership position (SES 
level) titled Associate Director for Resource and Visitor Protection. 
The incumbent in this position will also be considered the Chief Ranger 
of the National Park Service and, in collaboration with the Chief, U.S. 
Park Police, will provide leadership, focus and policy direction for 
the important cadre of professionals in the Service who carry out the 
multi-specialist Park Ranger functions of law enforcement, emergency 
services, wildland and structural fire protection, and a variety of 
other protection program management duties.
    The National Leadership Council has endorsed this organizational 
alignment and endorses the focused professionalism that will be gained 
to more affirmatively and strategically respond to the resource and 
visitor protection crisis before us. This first organizational decision 
is:

  <bullet> A recognition of the significant complexity and inherent 
        hazards associated with the Park Ranger and law enforcement 
        profession that demands technical skill, exceptional good 
        judgment, and professionalism in carrying out the demanding 
        requirements of these important functions.
  <bullet> Support for a dedicated cadre of Park Rangers and 
        enforcement specialists who professionally carry out the 
        highest ideals of resource stewardship and public service in 
        furtherance of the National Park Service mission.
  <bullet> A ratification of the intent of the variety of professional 
        reports and investigations commissioned by Congress, the 
        Department of the Interior, and the National Park Service that 
        have provided direction and guidance required for program 
        improvement.
  <bullet> A statement of clear intentions to implement changes to meet 
        the highest standards of program excellence as a Pledge of 
        Excellence to our employees and a Promise to the People of this 
        nation.

                      a strategy is required . . .
    The National Park Service leadership has commissioned a Law 
Enforcement Task Force to focus strategic actions and articulate 
implementation of recommendations made in six major reports. 
Expectations of the Task Force were to identify a road map to a phased 
plan or blueprint that logically and constructively achieved compelling 
support for renewed vigor of our resource and visitor protection 
programs and implementation of the essential program improvement 
recommendations. No new studies are required. What is required is a 
strategic plan to implement the studies already completed. Where 
required, effective budget strategies in collaboration with the 
Department of the Interior and the Congress must be developed to 
achieve staffing and equipment solutions in balance with other 
important operational requirements in parks.
    In March 2000, in accordance with Title 8 of Public Law 105-391, 
the National Park System Omnibus Management Act, the National Park 
Service conducted a study of the law enforcement needs of both the 
United States Park Police and National Park Service Rangers. The report 
was provided to the Office of Management and Budget (OMB) for 
consideration in the formation of coming budgets presented by the 
President. Yet, as we now prepare for the 2004 and 2005 budgets little 
of the focused recommendations made to Congress in this report or in 
the five others, including one by the DOI, have found their way into 
formal budget planning for the President. The lack of action on the 
budget front is occurring at the exact same time that our agency is 
confronted with demands for protection far in excess of any time in our 
nation's history. Rangers are engaged in a war against drugs along 1019 
miles of international border and 2357 miles of coastline. The National 
Park Service has assigned 1658 person-resources and dedicated 47,826 
person days in direct support of the Department of the Interior and 
National Park Service homeland security priorities during the period 9-
11-01 to 8-14-02. The number of rangers dedicated to homeland security 
assignments has ranged as high as 300 out of a permanent workforce of 
1360. Over 500 different National Park Service rangers have pulled 
homeland security duties. While the limited ranger workforce is engaged 
off-site, protection needs in the parks are simply not being addressed 
and the risks to resources and to people is acute. The National Park 
Service response to the September 11, 2001 attack, coupled with the 
tragic reality that two park rangers and one park policeman have lost 
their lives while performing their enforcement duties just since this 
March 2000 Report to Congress was completed, underlines in very human 
terms the crisis before us and the human toll we will pay for 
hesitation and lack of action.
    The Service's Law Enforcement Task Force needs to develop:

  <bullet> A comprehensive budget strategy to be developed in 
        partnership with the Department of the Interior and the Office 
        of Management and Budget.
  <bullet> A comprehensive informational and educational campaign to be 
        developed to connect constituencies, employees, the public and 
        members of Congress to the issues and solutions. A committee of 
        the Task Force should be commissioned to carry out these tasks.

    Budget Strategy elements to consider:

    1. The National Park Service Comptroller and Chief of Budget, Bruce 
Sheaffer must lead and formulate the budget approach. His long history 
in the organization and respected credibility on the Hill and in the 
Department will be essential in order to succeed. A funding baseline 
must be established to account for increases in law enforcement 
appropriations since and including the Ranger Careers initiative and 
effectively portray the constructive impacts they have had on the 
organization as the first of many required investments this agency 
requires. The NPS must also articulate the internal organizational, 
training, and operational investments that have already been made in 
response to the various reports.
    2. The two most important reports that articulate the needs of the 
agency relative to the National Park Ranger are the NPS Law Enforcement 
Program Study: Park Protection Rangers pursuant to P.L. 105-391, the 
National Parks Omnibus Management Act of 1998 and the report, Policing 
the National Parks 21st century Requirements completed by the 
International Association of Chiefs of Police in October 2000. These 
two reports need to be embraced as the definitive reports that 
articulate the needs and resolutions. They need to be updated and 
integrated in order to strategically use the information in them. They 
do not need to be validated further. They need to be embraced and 
effectively portrayed as providing the ``road map to the future''. 
Flexibility will be required in responding to issues that were not on 
the table when these reports were finished, but the agency is 
incredibly fortunate to have these two baseline reports available for 
use in establishing the case record of need.
    3. The two most important reports that articulate the needs of the 
agency relative to the Park Police are NFS Law Enforcement Program 
Study: United States Park Police pursuant to P.L. 105-391, the National 
Parks Omnibus Management Act of 1998, and U.S. Park Police: Focusing 
Priorities, Capabilities, and Resources for the Future completed by the 
National Academy of Public Administration in August 2001. Similar 
updating and integration is required in these reports.
    4. Strategic guidance from the U.S. DOI Office of Inspector General 
made in its report, Disquieting State of Disorder: An Assessment of 
Department of the Interior Law Enforcement must be evaluated.
    5. Prepare a multi-year phased budget approach consistent with 
recommendations in the above reports. The first phase should maximize 
the greatest gains to compensate for probable shifts in political 
support that can occur over long term, phased approaches. Targets for 
personnel and support increases should be closely tied to 
recommendations made in the two most important reports mentioned above. 
The figures for personnel additions vary from 615 new rangers (28% 
increase over existing) in the IACP report to 1295 new rangers in the 
Omnibus Act report. A strategy might be employed that merges the two 
report personnel recommendations into one package adding a total of 
1000 new rangers in a 10 year period, with 700 personnel to be added in 
the first five years of increases. A rough review of figures already 
presented in several reports would place the approximate costs of the 
program near the 80-100 million dollar mark The NPS must decide how to 
strategically portray Park Police and Park Ranger increases, whether in 
separate initiatives or a single initiative. A Business Plan approach 
should be taken to articulate the budget. A budget step-up plan might 
look like the following

Phase One
  <bullet> FY 2004-50 ranger recruit intake program established at 
        FLETC including personnel, training and support costs; funding 
        a Case Incident Management System for required national 
        reporting requirements; communication system funding meeting 
        Narrowbanding requirements; specific park base increases for 
        protection and law enforcement. Focus of this year is creating 
        an organizational capacity to begin to handle increased 
        recruits and necessary support and infrastructure costs.
  <bullet> FY2005--100 new ranger recruits including personnel, 
        training and support costs.
  <bullet> FY 2006--150 new ranger recruits including personnel, 
        training and support costs.
  <bullet> FY 2007--200 new ranger recruits including all costs.
  <bullet> FY 2008--200 new ranger recruits including all costs.
  <bullet> FY 2009--150 new ranger recruits including all costs. A 
        program assessment will be made to determine phase one capacity 
        relative to phase two needs.

Phase Two
    Add 300 or more new enforcement personnel as assessment dictates 
over a period of five more years (or less as the needs dictate). The 
assessment will look at emergent national law enforcement trends and 
needs coupled with trends and requirement faced by the parks at this 
critical mid-point in the phased program. Successes may dictate fewer 
personnel requirements and increased equipment requirements or 
situational analysis may indicate increased personnel requirements than 
originally predicted.
Elements to consider in a Comprehensive Informational and Educational 
        Strategy
    1. Obviously, a campaign to meet these needs must be accomplished 
in concert with the Department of the Interior and OMB. They must be 
integrated into all aspects of the campaign.
    2. The strategy must focus on education about the extent of the 
problem and the values at risk as the fundamental component of gaining 
support.
    3. Champions must be found within the Administration, Congress and 
constituencies.
    4. We must present a balanced approach, able to articulate the 
relative priorities of how we balance this effort relative to the other 
operational requirements of parks.
    5. We need accurate and effective marketing documents that better 
represent our role in protecting the nation's heritage, of responding 
to a Promise to the People. These should include brochures and 
attractive presentation of all pertinent reports, updated and accurate. 
Key aspects of the reports should be reproduced in attractive booklet 
form that portrays the ranger's important role in protecting our 
nation's heritage.
    6. We need an effective external and internal messaging system to 
maintain momentum and to focus on success.
    7. We might explore the use of video in a variety of ways to 
portray the important work that rangers do and more effectively use 
them in our national educational programs and our informational 
campaign.
    8. Most importantly, the agency must develop sustainable momentum 
and focused leadership over the entire phase in period that is not 
susceptible to the ever-constant reality of ``new programs'' and ``new 
initiatives''. Organizational discipline will be hard to develop, and 
even harder to maintain.

Immediate Next Steps
  <bullet> The work of the Task Force and the budget proposal concept 
        must be taken to the NLC. This Task Force must carry its work 
        out for the NLC instead of apart from it. It is time to bring 
        the leadership and the Task Force together. Agenda item at NLC 
        meeting September 16-19.
  <bullet> Deputy Director Don Murphy coupled with the Regional 
        Directors and their Deputies should invite several key 
        representatives from the Regional Chief Ranger's Council to 
        present before them and to clearly articulate a ``sense of the 
        field ranger'' about the critical need to accelerate progress 
        and accomplish some measurable products. Agenda item at RD/DRD 
        meeting held in conjunction with NLC meeting September 18.
  <bullet> A communique should be prepared and sent to the field 
        articulating the most recent outcomes of the Yosemite Task 
        Force meeting, approval to move ahead to create an Associate 
        level position, and to lay out a general budget strategy. The 
        field is exceptionally restless with, what appears to be lack 
        of substantial progress by the Task Force--especially when 
        considered in light of the tragic murder of Ranger Kris Eggle. 
        Recommend release no later than September 5.
  <bullet> Deputy Director Don Murphy needs to make preliminary 
        contacts with the Department about conceptual approaches we are 
        considering and seeking some level of DOI engagement in early 
        planning. Recommend no later than September 13 to allow 
        discussion at NLC meeting.
  <bullet> Comptroller Sheaffer begin to prepare early budget 
        approaches, collecting information, and establishing 
        documentation of law enforcement budget expenditures since 
        Ranger Careers that will be foundational to our work. Recommend 
        no later than November 1.
  <bullet> Deputy Director Murphy, Regional Director Arnberger, and 
        other subcommittee members as needed, attend the IMR Chief 
        Ranger's Conference in Salt Lake City, the week of November 4-8 
        in order to present status and listen to concerns. Similar 
        visits should be made to other regional conferences. November 
        4-8.
  <bullet> Full budget subcommittee meets at Reno, Nevada just prior to 
        the annual meeting of the Association of National Park Rangers 
        to formulate and advance the national budget strategy. November 
        14-15.
  <bullet> Deputy Director Murphy and possibly the new AD/R&VP address 
        ANPR and provide forum for discussion, input etc. Week of 
        November 18.
  <bullet> Subcommittee reports on progress to the NLC at their meeting 
        held jointly with ANPR in Reno. November 20-21.
                                 ______
                                 
                       A CONTRACT WITH THE FUTURE
             by robert l. arnberger, national park service 
                    regional director, alaska region
                               march 2002
    ``The act of creating a park is really an act of faith in all of 
the grand possibilities of the future. It is a contract with the 
future.''
            Dr. Shirley Malcom, National Park Advisory Board
                            proud traditions
    The National Park Service has a tremendous untapped power to 
contribute to a more perfect American Union, a more perfect society, 
and a loftier vision of what the power of person and society can 
accomplish. Parks can serve as a foundation of civic inspiration that 
it is important to care for all special places, no matter where they 
are, for they serve as the most basic underpinning of our way of life. 
They translate into place and living idea what freedom and equality 
represent in our society.
    The American people have chosen their best places for their parks 
because they have felt their best in them. These places are landscapes 
and historic shrines in which we feel wonder, reverence, respect--and 
maybe responsibility. Americans take pride in those things that 
demonstrate America at its best. We lake patriotic pride that we live 
in a land where such places exist and that we are a people capable of 
reserving this natural and cultural patrimony for future generations 
and ours. As our society evolves, their parks mirror the interests of 
the people. Americans are proud of distinctly American ideas and 
values, and in response, protecting living ideas is gaining prominence. 
The National Park Service is not just an organization that protects 
place, but also ideas.
    Parks can not be saved by only protecting parks. The greatest 
dreamers of the greatest National Park System have never envisioned a 
system that might include every place they thought should be preserved. 
Thus, even an imagined core mission of saving parks can only be 
achieved through, and with others who share in the greater mission of 
carrying out the patriotic mission of stewardship of our nations best 
places and ideas wherever they may be and whoever may own them.
    Herein is the ultimate and undeniable obligation to provide--and 
accept--leadership. The National Park Service must be a principled 
leader, with others, in everything it does. We must vision an 
organization that carries out national service on behalf of the people 
by providing inspiration and leadership, with and through partners, 
that can extend to all corners of every community and to all levels of 
our society. This requires the National Park Service to be the very 
best it can be at everything it does. We must set goals of quality 
performance and strive to improve upon them with every success or 
failure. We must involve our citizens to whom the benefits pass. We 
must respect others, the variety of their opinions and roles, as one of 
the distinctly American ideas that we protect.
    Leadership is the capacity to create the circumstances where the 
larger collective community can shape the future of the parks and their 
programs. Effective leadership with others who share common endeavors 
and interests can only be achieved by finding common cause on common 
ground with common idea. Success will only be realized through 
management and resolution of differences, by helping others to succeed 
in their parts of the greater mission, and seizing opportunity to 
succeed when it is presented.
    The core mission of the National Park Service has always included 
and been defined through protection of resources and providing visitor 
experience. These two values are passed to generations yet to be born--
a contract with the future. Implicit in the mission, lodged in the fine 
print of this contract, understood by those who sign and implement the 
contract, and expected by those who benefit is that education is a 
required role of the agency in order to preserve resources and provide 
visitor enjoyment. Education as a component of the National Park 
Service mission is not new. Weary employees tired of new initiatives 
that seemingly arrive in mystery and disappear with boredom should not 
suspiciously view it as a new ``initiative''. As well, those ``watch-
dogs'' concerned with appropriate roles and functions of federal 
agencies should not view focusing and refuting National Park Service 
education efforts as ``mission-creep''. Instead, education is an 
expression of who we are, what we stand for and always have, and what 
the potentials of the future can be. It is a validation of future 
purpose. It is more than a ``tool'' that is used to achieve our mission 
which limits potentials to short term strategies and transient gains 
and makes the effort susceptible to claims and allegations that our 
education programs are nothing more than ``agency propaganda'', self 
serving and highly suspect.
                          pathways to learning
    The National Park Service must better connect stewardship education 
with resources research and science. Education can serve as the bridge 
between knowledge and responsibility. Education can serve as the 
connection between the public who own the resources and those invested 
with the responsibility to manage them on behalf of the national 
interest. The National Park System has been called ``America's greatest 
university without walls'', yet what the parks offer to strengthen our 
common ties and to contribute to the overall sustainability of our 
planet are not well known. The overall benefits of almost 400 System 
sites in this ``university'' system, represented by a superbly talented 
work force, can wonderfully enrich the educational offerings provided 
to the citizens of this nation. This potential must be engaged more 
effectively, be more deeply embraced by those who labor in the Service, 
better understood and appreciated by the citizens for whom the parks 
are set aside.
    The existing education program in the National Park Service, while 
not in perfect health, is vibrantly alive at different parks across the 
System. It is a program tracing its traditions to the very formation of 
the Service through a long history of excellence in interpersonal 
interpretation provided by ranger-naturalists and ``park 
interpreters''. Exciting youth environmental education camps, teacher 
education laboratories, natural history institutes, and classroom 
visits by uniformed educators continue to demonstrate the excellence of 
the program. National Park Service education efforts have been emulated 
across the world in an international park system modeled after the 
American Park system. Programs have served to inspire millions of 
people about the importance of parks to the global community.
    Justifiably proud in what we do, the Service must also rise to 
higher levels to do what we do, better. Dr. Shirley Malcom, 
professional educator and member of the National Park System Advisory 
Board answers the question of ``what then is better?'' ``Better is more 
focused, more coherent and cohesive, and more connected. Better is 
creating bridges with the systems around us in both formal and informal 
education''. Creating these bridges presents incredible challenges 
because the National Park Service is not organized nor staffed 
effectively to connect with the national educational institution. Dr. 
Malcom observes that ``we do well at educating in parks, but are not 
organized to effectively bridge with other educational systems or to 
understand what those systems require.
    Parks can also be inspirational and inspiration can be part of 
learning at parks, but on its own, inspiration is only a pathway to 
something else. The synthesis of whatever action inspiration causes 
will be through and because of education. Reflecting on the importance 
of parks in providing inspiration and the connection to education Dr. 
Malcom states, ``these places are great and I am usually inspired--but 
what is next? Inspiration is an aspect of motivation--but it is not 
education. Provocation is an aspect of motivation--but it is not 
education. Education is the ``what next?''. Our parks must provide 
inspiration and offer motivation, but we also can not lose the 
opportunity to connect to the ``what next?''--and that is education. 
Education connects the sense of place and idea, with inspirational, 
learning, and enjoyment values, to actions and outcomes accepted and 
acted upon.
    Perhaps, our real challenge lies in not trying to teach, but more 
importantly, to create opportunities to learn. We must focus on 
connections--connecting parks and people through education, connecting 
parks to other parks and special places, and connecting with larger 
educational themes across the country provides the glue of common 
purpose. Doing better requires the National Park Service to go beyond 
where we are. Doing better requires us to go further than inspiration 
alone. Doing better requires us to better utilize the individual pieces 
of our present effort creating an ``educational mosaic'' of conceived 
design envisioned to accomplish conceived outcome. Doing better will 
require improved levels of innovation and educational scholarship. 
Strategic leadership embracing and enhancing the full connection 
between the science of protecting parks and the science of educating 
about parks will be required. Innovation presently fermenting 
throughout the System must bubble upwards to senior leadership that can 
begin to strategically remake and focus the entire agency's educational 
efforts. Programs and people that are stagnant must be challenged to 
new heights. Educational managers across the System must take hold of 
their own career disciplines and seek higher scholarship in fields of 
education and science. A new era of thought and experiment must 
compliment Freeman Tilden's, age-tested ``Interpreting our Heritage'', 
written in 1957. New thought and action must build upon Bill Browns 
respected ``Islands of Hope''. It is sad to reflect that these 
remarkable volumes that have guided generations of National Park 
Service educators were written before computers, distance education, 
cell phones, VCR's and CD's! Indeed, one of the most exciting 
innovations to appear on the scene, Learning Centers associated with 
the Natural Resource Challenge, was a concept originated by innovative 
resource managers and senior superintendents--not the Service's 
interpreters. Scholarship into what should constitute Service education 
and how it might differ from the art of Service interpretation is 
needed to better connect site-based visitor interpretive efforts with 
site-based educational programs with standards-based curriculum 
education. The professions of ``ranger interpreter'' and ``education 
specialist'' must be more cohesively linked to a more full 
understanding of what we want National Park Service education to be and 
the most effective niche it can fill. Through more effective 
scholarship we can link innovation to strategy. We need to do better 
``asset mapping'', linking what we do well with what others do well. 
Then, by linking multi-sector educational assets we can create bridges 
of opportunity. Strategic focus will be the principal product of 
scholarship and asset linkages.
                      setting the national course
    Collectively, with partners and participants, we must continue ``to 
bubble excellence to the top'' and set a strategic course to take our 
efforts to higher levels of success. A framework for those 
considerations might include the following:

  <bullet> Reconfigure the education organization within the National 
        Park Service so the Service can begin to create an 
        ``operational landscape'' of renewed vigor, scholarship and 
        strategic leadership required to do ``better'' as challenged by 
        Dr. Malcom. Until the organization positions itself for 
        leadership and success it will not be able to embrace a renewed 
        focus on excellence and innovation. I believe a position of 
        Associate Director of Education, Strategic Communications, and 
        Partnerships must be established. This senior level leader 
        should manage Harpers Ferry Center as a ``center of educational 
        excellence'' replete with the agency's leading technical 
        experts in media, exhibitory, publications, and communication. 
        Present dispersed offices overseeing interpretation, messaging, 
        tourism, public affairs, and partnership work with a wide 
        variety of foundations, cooperating associations, and friends 
        organizations would be placed in this Directorate and will 
        enhance the importance of education and its strategic linkages. 
        I believe this realignment can be accomplished without major 
        organizational dysfunction or displacement at very little cost. 
        Of course, there are other viewpoints and potential 
        organizational models of merit that deserve consideration.
  <bullet> Create a tighter agency educational mission and strategic 
        plan that more effectively creates the climate of educational 
        service and leadership. Clarify roles and functions to 
        differentiate service to the nation through education from more 
        narrow, value-laden environmental activism that can be highly 
        problematic to a public agency.
  <bullet> Undertake a comprehensive System-wide identification of 
        significant natural, cultural and recreational heritage themes 
        represented in the System of parks that can begin the 
        connection to the nation's broader educational institutions. 
        These themes begin to link to the variety of educational assets 
        available to connect our efforts. National themes can be 
        represented by regional and demographic based themes that 
        continue to link each piece of the ``mosaic'' into a 
        ``conceived design and outcome''.
  <bullet> Undertake asset mapping to determine potentials for 
        partnerships and methodologies to accomplish goals in order to 
        improve visitor interpretation, place-based education, 
        standard-based curriculum development, and distance education. 
        Seek ``deep partnerships'' that are long-term collaborative 
        relationships, more beneficial than short-term associations 
        without true program longevity.
  <bullet> Determine specific education program niches most effective 
        and appropriate for the National Park Service educational 
        program at national, regional, and local levels. Determine 
        standards of excellence, professionalism, and scholarship. 
        Develop the partnerships, both informally and formally, to 
        carry out the program. Define what program success is and how 
        it might be measured.
  <bullet> Change the face of the workforce and build the spirit of 
        excellence to carry out an invigorated, empowered, and 
        constantly evolving educational program. Hire more professional 
        educators into the education workforce. Focus on program depth 
        and long term sustainability rather than on program breadth and 
        numbers of different programs.
  inspiring places inspiring people . . . setting the course in alaska
    The Pacific West and Alaska Regions of the National Park Service 
have sought to model the leadership that must be required to move an 
improved program forward. A strategic plan titled, Inspiring Places 
Inspiring People--2000-2004, ``provides the framework for people inside 
and outside the agency to collaborate on educational efforts that 
connect people, parks, and natural and cultural resources. It is a 
comprehensive strategy, embracing all activities used by the National 
Park Service and its partners, to inform and educate the public about 
park resources and issues. It is interdisciplinary in approach, 
recognizing that all employees contribute to the education mission. It 
declares the Service's commitment to build and maintain lasting 
relationships with the education community as well as the broadest of 
constituencies, the American people and visitors to the parks from 
around the world.'' Further, this bold and energetic plan clarifies 
that the term education ``includes formal education (i.e., curriculum-
based programs), as well as traditional interpretive services such as 
ranger-led talks, publications and other informational media. It also 
refers to media relations, community outreach, volunteer programs, 
international cooperation, and youth programs. National Parks serve as 
the material and the means to teach, inform, inspire and motivate the 
people that we and our partners serve.''
    We must invigorate our efforts to better achieve the vision of this 
extraordinary plan. We must activate energies throughout the region to 
put into action the goals and objectives articulated in the plan. I 
propose we consider a 5-point approach that may focus our efforts:
1. Execute Leadership
    Strategic implementation of Inspiring Places Inspiring People must 
be better coordinated and collectively embraced by all regional staff. 
The energy of this strategy is ``drawn from its reliance on a park-
based approach to realizing its purpose''. To this end, park 
superintendents and senior program managers across all levels of the 
organization are expected to implement these objectives by 
incorporating measurable goals and actions, appropriate to each park or 
program, into their organization strategic plans. Everyone is part of 
our educational effort and all programs must consider an educational 
component in their efforts and deliberations.

  <bullet> In FY 03 we will commit to an additional position within the 
        regional office funded through existing regional 
        appropriations. This position will establish the ``landscape of 
        success'' for this program by working with parks, programs and 
        partners in a collaborative leadership role.

2. Integration of Education Effort
    The variety of efforts presently underway needs to be coordinated 
and integrated into a single, comprehensive program. Natural Resource 
programs, including research being performed across the region needs to 
be published for the employee, the public and for other scientists 
brought under the educational banner. The impressive Cultural Resource 
publications program needs to join under the same banner. The wealth of 
knowledge in such areas as design and sustainability, visitor and 
resource protection, and community-assistance programs by the Rivers, 
Trails, Conservation Assistance program similarly need to be better 
integrated. Key to this, will be an inventory of existing efforts and 
asset mapping to determine publics and partners.

  <bullet> In FY 02 the region completed a comprehensive assessment of 
        curriculum based educational efforts being carried out in the 
        parks.
  <bullet> In FY 02 the region will undertake another assessment to 
        determine the full range of programs being carried out at parks 
        and all levels of the program. With this information more 
        effective integration is possible.
  <bullet> In FY 03 the region will undertake focused work with 
        employees and partners to develop educational themes that fit 
        within the national framework and resonate with Alaska people 
        and places.
  <bullet> In FY 02 the region committed to the development of a 
        science publication printed twice annually that will focus on 
        ``NFS Research in Alaska''.

3. Create Deep Partnerships
    We must better develop long-term collaborative relationships with 
assets that share common vision and common goals. We must expand and 
deepen the obvious relationship with the Alaska Natural History 
Association and the National Park Foundation. We need relationships 
with other Alaska environmental organizations, Alaska business 
organizations, and State and local governments. We need to establish 
partnering relationships with primary and secondary schools that show 
interest in seeking opportunities for collaboration. We need more 
effective connection with statewide Alaska Native organizations that 
also seek educative goals for their people that are so deeply linked 
with the resources we jointly care for. We need to create continued 
opportunities that maximize challenge cost share funds and be more 
opportunistic in recognizing great ideas and finding a way to make them 
happen. We must create partner excitement and synergy.

  <bullet> In FY 02 Challenge Cost Share Funds will be exclusively 
        dedicated to innovative efforts that advance natural and 
        cultural resource management proposals that have specific 
        educational focus and to educational efforts that push the 
        regional strategy forward. We will seek new and innovative 
        partnerships.
  <bullet> In FY 02 the region will commit to filling a vacancy in the 
        Information and Technology Branch with a person skilled and 
        exclusively dedicated to better developing our web-based 
        education and information systems for the entire region.
  <bullet> In FY 03 the region will commit to either a position or 
        contract that will provide the technical skills required to 
        work with school districts on curriculum development.
  <bullet> In FY 02 we will expand Park Wise, the highly successful 
        web-based curriculum developed with the Anchorage School 
        District and GCI, by adding additional components to the 
        curriculum.
  <bullet> In FY 02 & 03 we will support the critical Learning Center 
        initiatives at Kenai Fjords and Denali as tremendously 
        important opportunities to be centers of research activities 
        that address research needs of parks and make information about 
        park resources available to the public. These centers will be 
        multi-park, theme-oriented, multi-disciplinary, governmental -
        non-governmental partnerships. They will utilize existing 
        facilities to enable parks and their partners to facilitate the 
        use of parks as libraries of knowledge and as places that 
        support visiting researchers. The Centers will coordinate 
        interpretation and education programs, transfer information 
        about park resources to park-based interpreters and the public 
        at large, provided outreach to schools, and encourage 
        development of web sites that enable long distance learning.

4. Organizational Alignments
    The organization must better align itself to meet the vision and 
goals of the program. The organization must better model the 5 points 
of our effort. We must find better ways to link efforts, to incorporate 
the Messaging Project, to guide and oversee efforts--and most 
importantly to hold ourselves accountable.

  <bullet> In FY 02 the Directorate level of the Regional Office 
        reorganized its Natural and Cultural Resource Management and 
        Education Program efforts into a single Associate Regional 
        Director office reporting directly to the Regional Director. 
        The incumbent in this position directly supervises Support 
        Office natural and cultural resource staff, interpretation, and 
        educational program staff increasing the opportunity for 
        program integration. To our knowledge the Alaska Region is the 
        only region that has established leadership and oversight 
        linkage of resources management, research and education into 
        the same office.
  <bullet> In FY 03 program leadership of Inspiring Places Inspiring 
        People will be staffed by a new program leader, assisted by 
        curriculum specialist, and will report directly to the 
        Associate Regional Director as a ``stand-alone'' organizational 
        component, with obvious collaborative linkages to the other 
        components within this Directorate.
  <bullet> In FY 03 the Alaska Public Lands Information Centers (APLIC) 
        located in Anchorage and Fairbanks will come under the 
        management of a single Center Superintendent that will report 
        directly to the Associate Director, utilizing saved positions 
        as APLIC education specialists. The APLIC primary grades 
        education program managed by these highly skilled education 
        specialists will be further focused, refined and enhanced to be 
        more effective in the communities of Anchorage and Fairbanks.
  <bullet> In FY 03 an Inspiring Places Inspiring People Advisory 
        Council reporting to the Associate Regional Director composed 
        of senior leaders from the parks, regional office, key partners 
        and Native Organizations will provide the insights and energy 
        required to move this strategy forward with all the players.
  <bullet> In FY 03 a glossy brochure available to partners and to be 
        used as a marketing tool for our work with non-profits and 
        friend-raising efforts will be published that brings all the 
        elements of the program into single focus.

5. Priorities
    Commitment must be backed by human and fiscal resource allocation 
throughout the entire region. Superintendents must look at existing 
educational and interpretive programs with critical eye to assure they 
meet the strategic vision articulated in Inspiring Places Inspiring 
People and to assure the efforts in place are effective and efficient 
Much of what we do needs to be better linked to the strategic vision 
and more cohesively managed and coordinated. This effort may not 
require funding, instead using existing staff more effectively. Our 
efforts will be managed as long-term investments that require staged 
and thoughtful work. Some priorities, out of many more to be developed, 
lie within the other 4 points of this plan.
    Our priorities will be placed in the hands of our leaders, our 
employees and our partners. Only through concerted and committed action 
can each one of us make a difference. In the end, it will be our 
Inspiring Places that will Inspire People to make a difference.

                                    

      

</pre></body></html>
